<html>
<title> - ENSURING PREPAREDNESS AGAINST THE FLU VIRUS AT SCHOOL AND WORK</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                   ENSURING PREPAREDNESS AGAINST THE
                      FLU VIRUS AT SCHOOL AND WORK

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 7, 2009

                               __________

                           Serial No. 111-19

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html







                  U.S. GOVERNMENT PRINTING OFFICE
49-372 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 7, 2009......................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Statement of the National Partnership for Women & 
          Families...............................................    57

Statement of Witnesses:
    Barab, Jordan, Acting Assistant Secretary for Occupational 
      Safety and Health, U.S. Department of Labor................    26
        Prepared statement of....................................    28
    Brockhaus, Ann, MPH, senior occupational safety and health 
      consultant, ORC Worldwide..................................    34
        Prepared statement of....................................    35
    Garcia, Miguel Antonio, R.N., BSN, for the American 
      Federation of State, County and Municipal Employees........    31
        Prepared statement of....................................    32
    Modzeleski, William, Associate Assistant Deputy Secretary, 
      Office of Safe and Drug-Free Schools, U.S. Department of 
      Education..................................................    13
        Prepared statement of....................................    15
        Additional material: ``Pandemic Flu and General Emergency 
          Management Resources''.................................    18
    O'Connell, Jack, California State superintendent of public 
      instruction................................................    22
        Prepared statement of....................................    24
    Schuchat, Anne, M.D., Acting Deputy Director for Science and 
      Program, Centers for Disease Control and Prevention........     7
        Prepared statement of....................................    10

 
     ENSURING PREPAREDNESS AGAINST THE FLU VIRUS AT SCHOOL AND WORK

                              ----------                              


                         Thursday, May 7, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:01 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Andrews, Woolsey, 
Hinojosa, McCarthy, Kucinich, Wu, Davis, Grijalva, Loebsack, 
Hare, Clarke, Courtney, Fudge, Tonko, Sablan, Titus, McKeon, 
Castle, Platts, Hunter, and Roe.
    Staff present: Ali Al Falahi, Staff Assistant; Tylease 
Alli, Hearing Clerk; Catherine Brown, Education Policy Advisor; 
Jody Calemine, General Counsel; Lynn Dondis, Labor Counsel, 
Subcommittee on Workforce Protections; Carlos Fenwick, Policy 
Advisor, Subcommittee on Health, Employment, Labor and 
Pensions; Denise Forte, Director of Education Policy; David 
Hartzler, Systems Administrator; Jessica Kahanek, Press 
Assistant; Sharon Lewis, Senior Disability Policy Advisor; 
Ricardo Martinez, Policy Advisor, Subcommittee on Higher 
Education, Lifelong Learning and Competitiveness; Stephanie 
Moore, General Counsel; Alex Nock, Deputy Staff Director; Joe 
Novotny, Chief Clerk; Rachel Racusen, Communications Director; 
Meredith Regine, Junior Legislative Associate, Labor; Margaret 
Young, Staff Assistant, Education; Mark Zuckerman, Staff 
Director; Stephanie Arras, Minority Legislative Assistant; 
James Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Andrew Blasko, Minority Speech Writer and 
Communications Advisor; Cameron Coursen, Minority Assistant 
Communications Director; Ed Gilroy, Minority Director of 
Workforce Policy; Rob Gregg, Minority Senior Legislative 
Assistant; Richard Hoar, Minority Professional Staff Member; 
Susan Ross, Minority Director of Education and Human Services 
Policy; Ken Serafin, Minority Professional Staff Member; Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel; 
and Loren Sweatt, Minority Professional Staff Member.
    Chairman Miller [presiding]. The committee will come to 
order. Today's hearing is on ensuring preparedness against flu 
virus and school and work, and I want to welcome the witnesses 
that will be testifying in a few minutes and all of the members 
of the committee.
    Just a couple weeks ago, the international health 
organizations began warning of the potential of a pandemic 
outbreak of H1N1 flu virus. To date, the Center in Disease 
Control has confirmed 642 cases of H1N1 in the United States in 
over 40 states, and two deaths, including the first adult 
death.
    Since the alarm was raised, this administration has acted 
decisively and responsively to prevent spread of virus and to 
prevent undo alarm among the American people. On Tuesday, after 
more than 545 school closings that sent more than 341,000 
children and 21,000 teachers and staff home, federal officials 
recommended that schools with suspected H1N1 flu cases no 
longer needed to close. This is good news.
    Still, public health officials expect this virus will reach 
all 50 states. Experts also warn that the H1N1 or other viruses 
may hit harder and stronger by this coming fall. As we look 
forward, we have an obligation to examine how this 
unpredictable outbreak has tested school, childcare centers, 
colleges, and workplaces. In many cases, our morphing public 
health needs simply don't align with our education and business 
needs.
    Today's hearing gives us an opportunity to look at these 
challenges while they are fresh and to determine what lessons 
we can learn to prepare for future pandemics. This outbreak has 
proven that a pandemic can have ripple effects throughout our 
entire communities.
    Many schools are still closed but preparing to reopen. 
Colleges and childcare programs have also closed. Teachers and 
faculties have to figure out how to maintain student learning 
in the face of closures. There is also no one coordinated 
system for reporting cases at schools.
    Education agencies are currently tracking information 
through country health officials, the CDC, and news reports. 
There are no specific reporting requirements for districts. As 
a result, agencies may not have the most complete information 
about what is happening on the ground.
    The ripple effect is evident in workplaces, too. Employers 
and workers have questions about how to protect themselves, 
their families, their businesses, and their jobs in the event 
of a flu outbreak. While the Occupational Safety and Health 
Administration has issued guidance and even has some specific 
standards relevant to pandemic flu, it does not have a 
mandatory comprehensive standard for protecting workers from 
airborne transmissible diseases.
    As we will hear more about today, this is especially 
troubling for workers on the front lines of pandemics. If 
nurses, doctors, or first responders and other health care 
workers get sick, they can't treat flu victims or anyone else 
in the community. If they believe their workplace is unsafe, 
they may stay home to protect their own health.
    Sufficient worker protections must be in place to ensure 
that our health care system has the capacity to deal with 
widespread viral outbreaks. We also want to know what measures 
businesses are and should be taking to prepare for pandemic 
outbreaks, including how to deal with sick employees.
    Current federal leave policies only cover some workers. 
Paid leave isn't required to ensure sick workers stay home, and 
a situation where a working parent has childcare problems due 
to school closures aren't covered.
    Finally, we also need to examine what preventative actions 
employers and employees should be taking, like providing 
training on flu prevention, what businesses could do to keep 
operating if a pandemic hits. Especially in this economy, it is 
critical to ensure that students can keep learning, businesses 
can keep providing services to our community.
    I would again like to thank all of our witnesses for taking 
the time out of your vital work in these areas to join us, and 
I look forward to hearing from your testimony. I would like now 
to recognize the senior Republican of the committee, my 
colleague from California, Congressman McKeon.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. Welcome to today's hearing on ``Ensuring preparedness 
against the flu virus at school and work.''
    Just a couple weeks ago, international health organizations began 
warning of the potential of a pandemic outbreak of the H1N1 flu virus.
    To date, the Center for Disease Control has confirmed 642 cases of 
H1N1 in the United States in over 40 states, and two deaths, including 
the first adult death.
    Under President Obama's steady leadership, our government is acting 
decisively, responsibly and aggressively to control the virus and 
prevent undue alarm.
    On Tuesday, after more than 545 school closings that affected over 
341,000 children and almost 21,000 teachers and staff, officials 
announced that schools no longer need to close due to confirmed cases 
of swine flu.
    That is good news.
    However, officials still expect the virus to reach all 50 states 
within days, and experts predict that H1N1 or another flu pandemic may 
hit harder and stronger by fall.
    In addition to its public health and safety risks, this pandemic 
has also highlighted how transmissible diseases can affect a school, a 
workplace, and families--including both their physical and financial 
health.
    As we look forward, we have an obligation to examine how this 
unpredictable outbreak has challenged schools, childcare centers, 
colleges and workplaces. In many cases, our morphing public health 
needs simply don't align with our education and business needs.
    Today's hearing will give us a critical opportunity to look at 
these challenges while they're fresh and what lessons we can learn to 
prepare for future pandemics.
    This outbreak has proven that a pandemic can have a ripple effect 
on our communities.
    Many schools are still shut but are preparing to re-open. Colleges 
and child care programs have also shut down.
    These closures don't just affect the students, teachers, and other 
staff--but families, coworkers, and surrounding communities.
    Parents have to scramble to find last-minute child-care 
arrangements for their kids--or take off work.
    Teachers and faculty have to figure out how to maintain student 
learning in the face of closures.
    School districts, childcare facilities and colleges have to 
coordinate closely with public health officials to make sound decisions 
about suspected or confirmed flu cases.
    It's a delicate balancing act between taking necessary safety 
precautions without overreacting or igniting panic.
    There is also no one coordinated system for reporting cases in 
schools. Education agencies are currently tracking information through 
county health officials, the CDC and news reports--but there are no 
specific reporting requirements for districts.
    As a result, agencies may not have the most complete information 
about what's happening on the ground. State education and health 
agencies have a role to play here.
    The ripple effect is evident in workplaces too.
    Both employers and workers have questions about how to protect 
themselves, their families, their businesses, and their jobs in the 
event of a flu outbreak.
    While the Occupational Safety and Health Administration has issued 
guidance and even has some specific standards relevant to pandemic flu, 
OSHA does not have a mandatory standard that comprehensively addresses 
the workplace hazards posed by airborne transmissible diseases.
    Ensuring that appropriate standards are in place and are being 
followed is especially critical in the highest risk workplaces: Health 
care facilities.
    If nurses, doctors, and other health care workers get sick, they 
can't treat flu victims or anyone else.
    If they believe their workplace is unsafe, they may stay home out 
of their own fear of contracting a virus. Sufficient worker protections 
must be in place to ensure that our health care system has the capacity 
to deal with widespread viral outbreaks.
    But our concern is not limited to the health care workplace.
    We want to know what measures businesses in general are and should 
be taking to prepare for pandemic outbreaks. For example, one critical 
issue that employers face is how to deal with sick employees. In this 
economy, workers are less likely to take time off for fear of losing 
pay, benefits, or even their job. In the context of a pandemic, having 
the right leave policies becomes a matter of public health. It is 
becoming increasingly clear that current federal sick leave 
requirements aren't designed to address pandemics.
    Current federal law covers only some workers. It doesn't require 
paid leave to ensure sick workers stay home. And it doesn't cover 
situations where a working parent has child care problems due to a 
school closure.
    We also need to examine what other preventative actions employers 
and employees should be taking, like providing training on flu 
prevention, and what businesses can do to keep operating if a pandemic 
hits.
    These challenges are acute, and they won't go away. Experts predict 
the likelihood of pandemics will increase. Our federal policies will 
need to adapt. On the education front, Secretary Duncan and the CDC 
have been in frequent communication with school districts and parents 
to provide critical advice.
    The CDC is also currently in the process of reviewing its 
guidelines to help schools better prepare for and respond to outbreaks. 
On the workplace front, under its new leadership, OSHA is looking at 
how it can improve its health and safety rules and guidance to address 
flu pandemic protocol. We'll learn more about these efforts from our 
panel.
    Especially in this economy, it's critical to ensure that students 
can keep learning and businesses can keep providing services to 
communities.
    I'd like to thank all of our witnesses for taking time out from the 
vital work you're doing to fight this pandemic to join us today.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller, and good morning.
    Over the past few weeks, many parents and employers have 
been concerned about, with this threat of H1N1 flu virus, and 
rightly so. As most parents know, illnesses such as the flu can 
spread through a school almost as fast as an email or text 
message. It is one of those facts of life that parents of 
school-aged children have had to face for generations.
    But the H1N1 flu is different because it can be deadly. And 
with its original, exotic, and inaccurate name of swine flu, it 
was natural for parents to become worried.
    American employers have also been worried. First and 
foremost, they are concerned about the health and wellbeing of 
their workers. But they are also wondering about how this virus 
might affect their ability to run their businesses.
    We look at Mexico, where the government ordered a 
nationwide shutdown of all nonessential businesses for almost a 
week. In Mexico City alone, estimated losses were put at $88 
million a day. If something like that happened in the United 
States, it would certainly take a toll on working families, and 
you do not have to be a financial genius to know it would not 
help America's struggling economy.
    People also can overreact when they hear about a virus. I 
am sure many of us thought about buying facemasks after seeing 
others wear them on T.V. I am also sure a few may have got one 
already, just in case.
    Governments can overreact, too. Earlier this week, U.S. 
health officials reversed their recommendation that schools 
should close as long as 2 weeks if a student catches the H1N1 
virus.
    Why did this happen? One of the reasons was that officials 
realized that closing schools would do little to prevent the 
spread of the disease in the first place. But schools across 
the nation have done just that.
    In fact, the Washington Post reported yesterday that at 
least 726 schools have closed to stop the spread of the flu, 
but the Post did not report that there are more than 100,000 
elementary and secondary schools in the United States. So that 
means less than 1 percent of the schools have closed because of 
the flu. This context would have been helpful because it would 
have contributed to a better understanding about the threat 
from this virus.
    That is what I hope our experts can provide today to this 
committee and to the American public: a better understanding 
about H1N1. Their information, calmly and accurately presented 
with context, will be a great help.
    We can learn more about this disease, its cause, and most 
importantly, the steps that can be taken in both our schools 
and places of work to prevent its spread, because at the end of 
the day I believe we are all committed to the same goal of 
protecting our children and our coworkers. To that end, I 
welcome our witnesses today and look forward to hearing from 
them and learning more about this virus.
    Thank you, Chairman Miller, and I yield back.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Chairman Miller and good morning.
    Over the past few weeks, many parents and employers have been 
concerned with the spread of the H1N1 flu virus. And rightly so.
    As most parents know, illnesses such as the flu can spread through 
a school almost as fast as an e-mail or a text message. It's one of 
those facts of life that parents of school-age children have had to 
face for generations.
    But the H1N1 flu is different because it can be deadly. And, with 
its original, exotic (and inaccurate) name of ``swine flu''--it was 
natural for parents to become worried.
    American employers have also been worried.
    First and foremost, they are concerned about the health and well-
being of their workers. But they are also wondering about how this 
virus might affect their ability to run their businesses.
    They look at Mexico, where the government ordered a nationwide 
shutdown of all non-essential businesses for almost a week. In Mexico 
City alone, estimated losses were put at $88 million a day.
    If something like that happened in the United States, it would 
certainly take a toll on working families. And, you do not have to be a 
financial genius to know it would not help America's struggling 
economy.
    People also can overreact when they hear about a virus. I'm sure 
many of us thought about buying face masks after seeing others wear 
them on TV. I'm also sure a few may have bought one already just in 
case.
    Governments can overreact, too. Earlier this week, U.S. health 
officials reversed their recommendation that schools should close for 
as long as two weeks if a student catches the H1N1 virus.
    Why did this happen? One of the reasons was that officials realized 
that closing schools would do little to prevent the spread of the 
disease in the first place.
    But schools across the nation have done just that. In fact, the 
Washington Post reported yesterday that at least 726 schools have 
closed to stop the spread of the flu.
    But the Post did NOT report that there are more than 100,000 
elementary and secondary schools in the United States.
    So that means less than 1 percent of schools have closed because of 
the flu.
    This context would have been helpful because it would have 
contributed to a better understanding about the threat from this virus.
    That's what I hope our experts can provide today to this committee 
and the American public: a better understanding about H1N1.
    Their information, calmly and accurately presented with context, 
will be a great help. We can learn more about this disease, its cause 
and, most importantly, the steps that can be taken in both our schools 
and places of work to prevent its spread.
    Because at the end of the day, I believe we are all committed to 
the same goal of protecting our children and our co-workers.
    To that end, I welcome our witnesses today. I look forward to 
hearing from them and learning more about this virus.
    Thank you, Chairman Miller. I yield back.
                                 ______
                                 
    Chairman Miller. Thank you.
    I would like to briefly introduce our witnesses. First we 
will hear from Dr. Anne Schuchat, who currently serves as the 
interim deputy director for science and public health programs 
at the Center for Disease Control and Prevention.
    Before this assignment, Dr. Schuchat was the director of 
the CDC's National Center on Immunization and Respiratory 
Diseases, and has spend more than 20 years at the CDC working 
on immunization, respiratory and other infectious diseases. Dr. 
Schuchat graduated with the highest honors from Swarthmore 
College and honors from the Dartmouth Medical School.
    Mr. Bill Modzeleski is the associate assistant deputy 
secretary in the Office of Safe and Drug-Free Schools at the 
Department of Education. In Mr. Modzeleski's prior role as the 
associate deputy undersecretary of the Office of Safe and Drug-
Free Schools, Mr. Modzeleski was involved in the design and 
development of drug and alcohol prevention programs, violence 
prevention programs and activities, especially as they affect 
schools and in the school health-related issues. Mr. Modzeleski 
has a B.A. and a degree from political science form the 
University of Bridgeport, and an MPA from the C.W. Post 
College.
    Mr. Jack O'Connell is the superintendent of public 
instruction at the California Department of Education. Mr. 
O'Connell previously served in the California state senate, 
representing the 18th district from 1994 to 2002, and Mr. 
O'Connell received a B.A. in history from the California State 
University at Fullerton and earned a secondary teaching 
credential from California State University at Long Beach.
    Mr. Jordan Barab is the acting assistant secretary of the 
Occupational Health and Safety Administration. He served most 
recently as a senior policy advisor for the Education and Labor 
Committee. Mr. Barab is the special assistant to the assistant 
director for labor at the Occupational Safety and Health 
Administration from 1998 to 2001, and directed the safety and 
health programs for the American Federation of State and County 
Municipal Employees from 1982 to 1998. He graduated at 
Claremont McKenna College in California and received a master's 
degree in international relations for Johns Hopkins University.
    Mr. Miguel Antonio Garcia is currently a registered nurse 
at Kaiser Permanente Los Angeles Medical Center Emergency 
Department and serves as a labor union contract specialist and 
workplace safety labor co-chair. Mr. Garcia received a B.S. in 
nursing from Franciscan University.
    Ms. Ann Brockhaus is the occupational safety and health 
consultant at ORC Worldwide, where since 1990 she has provided 
assistance to clients on a wide range of occupational health 
issues. Ms. Brockhaus holds a BSN from Georgetown University 
and a master's degree in public health from Johns Hopkins 
University Bloomberg School of Public Health.
    Welcome to the committee. Thank you for taking your time to 
share your experience and your expertise with the members of 
this committee. As I mentioned to you a little bit earlier, we 
are here to learn from your experiences over this past month, 
and the lessons that you think you have learned, and where you 
think, perhaps, there is a misalignment in the system in terms 
of best informing our population and protecting them. So we 
look forward to your testimony.
    When you begin to testify, a green light will go on in 
front of you and you will have 5 minutes for your formal 
testimony. At 4 minutes an orange light will go on and you want 
to think about wrapping your testimony up, and then there will 
be a red light. But we want you to complete your thoughts in a 
manner that you think is most important to us.
    Dr. Schuchat, we will begin with you. Welcome.

STATEMENT OF DR. ANNE SCHUCHAT, DEPUTY DIRECTOR FOR SCIENCE AND 
 PUBLIC HEALTH PROGRAMS (INTERIM), CENTERS FOR DISEASE CONTROL 
                         AND PREVENTION

    Dr. Schuchat. Thank you. Good morning, Chairman Miller, 
Ranking Member McKeon, and distinguished members of the 
committee. I am Dr. Anne Schuchat, acting deputy director for 
science and program at the Centers for Disease Control and 
Prevention, and really appreciate the opportunity to talk to 
the committee this morning. I will be updating you about what 
we know, what CDC is doing, and some of the steps that are in 
place, and really appreciate the chance to testify with the 
distinguished colleagues.
    First, I just want to say that my heart and the hearts of 
CDC really go out to the people in the communities that have 
been affected here in the United States, in Mexico, and around 
the world, both directly from the virus and then indirectly 
from some of the interventions and the impacts they have had on 
families and communities. We know that our nation's 7.6 million 
workplaces and over 126,000 schools and other childhood 
settings have been facing the challenges of this outbreak.
    We share the concern of people across the country, and we 
are responding aggressively at the federal, state, local, 
tribal, and territorial levels to understand the complexities 
of this outbreak and to implement effective control measures. 
Our aggressive actions are possible in many respects because of 
investments and support of the Congress in U.S. pandemic 
preparedness, which has provided us with many of the tools we 
are using to detect, track, and control the impact of this 
outbreak at CDC and at state and local health departments 
across the country.
    Influenza viruses are very unpredictable. It is hard to 
anticipate the course that this outbreak will have with any 
certainty, either this spring or in the fall at the usual 
return of the influenza season. We do expect to see an increase 
in the number of cases, the number of states affected, and we 
also expect to see additional deaths and hospitalizations.
    We are carefully monitoring the severity of illness caused 
by this virus. While preliminary evidence is encouraging, we 
understand that this, too, could change. Amid this uncertainty, 
our goals are to be clear in communicating what we do know, 
acknowledge the uncertainties, be clear about communicating 
what we are doing and what individuals can do, themselves, to 
protect the families in their communities.
    Influenza arises from a variety of sources, and in this 
case we have determined there is a new, or novel, influenza A 
H1N1 virus that is circulating around the globe that contains 
genetic sources from four different virus sources. We have been 
able, within just 2 weeks, to identify this novel virus, 
understand its complete genetic characteristics, and compare 
the genetic composition of specimens from U.S. patients to 
others from around the globe to watch for mutations that may 
change the properties of the virus and how it behaves in 
people.
    We have also very quickly deployed--or, developed and then 
deployed--test kits for use in the widening network of 
laboratories that are responding to this outbreak. These steps, 
along with the capacity that is in place as a result of 
effective planning over the last few years, have allowed for 
the rapid diagnostics and epidemiology that contribute to a 
clearer understanding of transmission and severity of the 
illness caused by the virus. These scientific accomplishments 
have provided the basis for an evolving set of responses that 
greatly enhance our nation's ability to address this threat.
    CDC has determined that the virus is contagious; it is 
spreading from human to human. It appears to spread with 
similar characteristics to seasonal influenza virus, through 
coughing and sneezing, through human-to-human contact. 
Sometimes people may become infected by touching something that 
has the flu viruses on it and then touching their mouth or 
nose. There is no evidence at all that this virus can be 
acquired from contact with pigs or from eating pork or pork 
products.
    Aggressive actions are being taken here in the U.S., as 
well as around the world. We are working very closely with 
state and local public health officials around the country on 
the investigation and on implementation of interventions, such 
as infection control measures. We are providing both technical 
support on the epidemiology as well as laboratory support for 
confirming cases.
    We are also working with international partners on the 
outbreak, including a collaborative effort in Mexico, really 
the epicenter of the problem, to better understand the outbreak 
and enhance surveillance and lab capacity there. And we are 
working closely with Secretary Napolitano and our other federal 
partners to ensure our efforts are coordinated and effective.
    CDC has issued numerous health advisories for individuals, 
health care practitioners, schools, and communities, and these 
continue to evolve as our understanding of the situation 
changes. In fact, a key message from CDC is that there is a 
role for everyone to play in the outbreak.
    At the individual level it is important for people to 
understand how to prevent respiratory infections. Frequent hand 
washing is a good idea; if you are sick, stay home; if you are 
sick, don't get on an airplane or public transport; keep your 
kids home from school if they are sick. Taking personal 
responsibility can help reduce the spread of this virus as well 
as other respiratory infections.
    But the path of this outbreak is unclear. As I said, 
influenza is unpredictable, and we need to be prepared for the 
potential return of this virus in the fall, perhaps in a more 
severe format. It is important for public health officials to 
continue--that they continue to think about what might be 
needed if the outbreak deepens in the communities where you 
work. It is also important for businesses, schools, and local 
governments to anticipate those types of changes.
    Schools and childhood settings, including Head Start and 
childcare programs, play a critical role in protecting the 
health of their students, staff, and the community from 
contagious diseases, including this novel H1N1 influenza. About 
one out of five Americans spend considerable time in one of the 
more than 90,000 school buildings on any given school day. 
Millions of adults work in school and childhood settings, and 
many millions more are parents or guardians of school-aged 
children.
    While CDC has made scientific recommendations about how 
schools can deal with this virus, the authority for decisions 
regarding school dismissal resides at the state and local 
level. We at CDC applaud the collaborative efforts of school 
superintendents, Head Start and childcare directors, county 
executives, mayors, governors, et cetera, who are on the front 
lines of this epidemic.
    The emergency preparedness work that communities had done 
before this outbreak has been essential in the response. That 
includes the 600 local education agencies that have been 
working with our colleagues in the Department of Education 
through their Readiness and Emergency Management for Schools 
Program. Without that sort of considerable advanced planning 
and ongoing exercising, we would have been much less prepared 
for this outbreak and the ongoing reponse.
    Chairman Miller. Dr. Schuchat, I am going to ask if you can 
start to wrap up.
    Dr. Schuchat. Sure.
    Chairman Miller. Thank you.
    Dr. Schuchat. Absolutely.
    CDC's NIOSH is leading the agency's efforts to minimize 
effects on the epidemic and working to disseminate guidelines. 
I do want to stress that as we learn more we try to use the 
science to inform changes in guidelines and try to work 
collaboratively across government and with partners before we 
issue new guidelines. We in the government can't solve this 
problem on our own, and we do need the cooperation of all the 
other sectors.
    I just want to conclude by saying, we don't know exactly 
where this virus will go, but we have never been as prepared as 
we are today, based on the investments of the past few years. 
Thank you.
    [The statement of Dr. Schuchat follows:]

 Prepared Statement of Anne Schuchat, M.D., Acting Deputy Director for 
    Science and Program, Centers for Disease Control and Prevention

    Good morning, Chairman Miller, Ranking Member McKeon, and other 
distinguished members of the Committee. I am Dr. Anne Schuchat, Acting 
Deputy Director for Science and Public Health Program, Centers for 
Disease Control and Prevention.
    I thank you for the opportunity to update you on current efforts 
CDC is taking to respond to the ongoing novel H1N1 influenza outbreak, 
highlighting our efforts regarding schools and workplaces. I am pleased 
to be speaking to you today with our colleagues from the US Department 
of Education and the Occupational Safety and Health Administration.
    Our hearts go out to the people in the United States, in Mexico, 
and around the globe who have been directly impacted. We know that our 
nation's 7.6 million workplaces and over 126,000 schools and other 
childhood settings have been facing the challenges of this outbreak. We 
share the concern of people around the country and around the globe; 
and are responding aggressively at the federal, state, local, tribal, 
and territorial levels to understand the complexities of this outbreak 
and to implement control measures. It is important to note that our 
nation's current preparedness is a direct result of the investments and 
support of the Congress for state and local pandemic preparedness, and 
the hard work of state and local officials across the country.
    It is important for all of us to understand that flu viruses--and 
outbreaks of many infectious diseases--are extremely unpredictable. As 
with any public health investigation, our response has evolved as our 
investigation proceeds and we learn more about the situation. We have 
seen an increase in the number of cases and the number of states 
affected, and we can expect more people and states to be affected. We 
are carefully monitoring the severity of illness caused by this virus--
and while preliminary evidence is encouraging, we understand that this, 
too, could change. Our goal in our daily communication--to the public, 
to the Congress, and to the media--is to continue to be clear in what 
we do know, explain uncertainty, and clearly communicate what we are 
doing to protect the health of Americans. It has also been a clear 
priority to communicate the steps that Americans can take to protect 
their own health and that of their community. As we continue to learn 
more, these communications and our guidance to public health officials, 
health care providers, schools, businesses, and the public has changed 
and will continue to evolve.
    Influenza arises from a variety of sources; for example, swine 
influenza (H1N1) is a common respiratory disease of pigs caused by type 
A influenza viruses. These and other animal viruses are different from 
seasonal human influenza A (H1N1) viruses. From laboratory analysis 
already performed at CDC, we have determined that there is a novel H1N1 
virus circulating in the U.S. and Mexico that contains genetic pieces 
from four different virus sources. This particular genetic combination 
of H1N1 influenza virus is new and has not been recognized before in 
the United States or anywhere else worldwide. As a result of our 
investment in pandemic preparedness, we have been able to move within 
two short weeks to identify a novel virus, understand its complete 
genetic characteristics, and compare the genetic composition of 
specimens from US patients to others around the globe to watch for 
mutations. We have also quickly developed and (working with FDA) 
deployed test kits for use in a widening network of laboratories. These 
steps, along with capacity in place as a result of effective planning, 
have allowed for the rapid diagnostic and epidemiologic capabilities 
that have contributed to a clearer understanding of the transmission 
and severity of illness caused by the virus. These scientific 
accomplishments have provided the basis for an evolving set of 
responses that greatly enhance our nation's ability to address this 
threat.
    CDC has determined that this virus is contagious and is spreading 
from human to human. It appears to spread with similar characteristics 
as seasonal influenza. Flu viruses are thought to spread mainly from 
person to person through coughing or sneezing by people with influenza. 
Sometimes people may become infected by touching something with flu 
viruses on it and then touching their mouth or nose. There is no 
evidence to suggest that this virus has been found in swine in the 
United States, and there have been no illnesses attributed to handling 
or consuming pork. Currently, there is no evidence that one can get 
this novel H1N1 influenza from eating pork or pork products. Of course, 
it is always important to cook pork to an internal temperature of 160 
degrees Fahrenheit in order to ensure safety.
    I want to reiterate that as we look for cases, we are seeing more 
cases. We fully expect to see not only more cases, but also more cases 
of severe illness. We have ramped up our surveillance around the 
country to try and get a better understanding of the magnitude of this 
outbreak.
    Let me provide for you an update in terms of the public health 
actions that are underway in the United States and abroad. On the 
investigation side, we are working very closely with state, local, 
tribal and territorial public health officials around the country. 
We're providing both technical support on the epidemiology as well as 
laboratory support for confirming cases. We are also working with the 
World Health Organization, the Pan American Health Organization, and 
the governments of Mexico and Canada on this outbreak. There is a tri-
national team that is working in Mexico to better understand the 
outbreak, and answer critical questions such as why cases in Mexico 
initially appeared to be more severe than those that were first seen in 
the U.S. We are assisting Mexico to establish more laboratory capacity 
in-country, a critical step in identifying more cases on which to base 
our epidemiological investigation into the spread and severity of this 
new virus.
    In terms of travel advisories, CDC continues to evaluate incoming 
information from the World Health Organization, the Pan American Health 
Organization, and other governments to determine the potential impact 
of the outbreak on international travel. On Monday, April 27th, CDC 
issued a travel health warning for Mexico, and this remains in effect. 
With this warning, we recommend that travelers postpone non-essential 
travel to Mexico for the time being. CDC is also evaluating information 
from other countries and will update travel notices for other affected 
countries as necessary. As always, persons with flu or flu-like 
symptoms should stay at home and should not attempt to travel.
    CDC has and will continue to develop specific recommendations for 
what individuals, communities, clinicians, and others professionals can 
do. It is important that people understand that there is a role for 
everyone to play during an outbreak. At the individual level, it is 
important for people to understand how they can prevent respiratory 
infections. Very frequent hand-washing is something that we talk about 
time and time again and that is an effective way to reduce transmission 
of disease. If you are sick, it is very important to stay at home. If 
your children are sick, have a fever and flu-like illness, they should 
not go to school. And if you are ill, you should not get on an airplane 
or any public transport to travel. Taking personal responsibility for 
these things will help reduce the spread of this new virus as well as 
other respiratory illnesses.
    The path of this outbreak may change; and we need to be prepared 
for a possible return of this virus in the fall. It is important that 
we (in partnership with state and local officials) continue to think 
about what might be needed if this outbreak deepens in communities 
across the US. We have encouraged communities, businesses, schools, and 
local governments to make specific plans to manage this outbreak if 
cases appear in their communities, and advised parents to prepare for 
what they would do if faced with temporary school and child care center 
closures. We also have additional community guidance so that 
clinicians, laboratorians, and other public health officials will know 
what to do should they see cases in their community. All of these 
specific recommendations, as well as other regular updates, are posted 
on the CDC web site--www.cdc.gov/H1N1flu.
    As places where many people gather across the U.S., schools, 
childhood settings including Head Start, family child care and child 
care programs, and workplaces are essential for mitigating this 
outbreak. Including students and adults who work in schools, 
approximately 20% of the US population spends considerable time in one 
of the more than 90,000 school buildings on any given school day. 
Millions of adults work in school and childhood settings, and many 
millions more are parents or guardians of school-aged children. Schools 
and childhood settings play a critical role in protecting the health of 
their students, staff, and the community from contagious diseases such 
as this novel H1N1 influenza. I'd like to recognize the work and 
collaboration of our partners at US Department of Education, state and 
local education agencies, and other education partners as we have been 
learning about this new virus, providing the best science we can in an 
uncertain situation, and working hard to keep our nation's children 
safe.
    While CDC has made scientific recommendations about how schools can 
deal with this virus, the responsibility for decisions regarding school 
dismissal resides at the state, local, tribal, and territorial level, 
and CDC applauds the collaborative efforts of school superintendents, 
Head Start and child care Directors, County Executives, mayors, 
governors, emergency management officials, and public health officials 
who are on the front lines of this epidemic. We are mindful that 
science is a critical component in decision-making about how 
communities respond--and that there are also many other considerations 
that communities must evaluate in making appropriate decisions. The 
emergency preparedness work that communities have done before this 
outbreak--such as exercising their emergency plans--has been essential 
in their response now. This includes the 600 local education agencies 
that have been working with our colleagues at the Department of 
Education through their Readiness and Emergency Management for Schools 
Program. Without considerable advance planning by communities and 
ongoing updating and exercising of school emergency plans, we would've 
been much less prepared for this outbreak, and we are grateful for all 
of the work our Education colleagues have done in this regard.
    During public health emergencies like the current novel influenza A 
(H1N1) epidemic, protecting workers is a top priority, both as members 
of the community, and as workers with special roles in ensuring the 
functioning of critical infrastructure. Workers can contract influenza 
through general community exposures or workplace-specific transmission. 
CDC is working to minimize both pathways.
    Some workers--especially healthcare workers and emergency 
responders--are at special risk for infection because their jobs, by 
definition, bring them into repeated, close contact with individuals 
ill with novel H1N1. These workers represent a particularly high 
priority for prevention, both because of the potential for added risk 
and because it will be particularly problematic if they become 
unavailable through illness or reluctant to perform their duties. Other 
workers are in critical infrastructure positions--they keep society 
functioning by maintaining utilities, public safety, and food and water 
supply. Many of these workers may not experience a greater risk of 
workplace transmission than other workers, but their functions are 
crucial, so keeping them on the job is a priority.
    CDC's National Institute for Occupational Safety and Health is 
leading the Agency's efforts to minimize effects of the epidemic on 
working populations by developing and disseminating guidance regarding 
precautions to prevent work-related transmission of the illness. 
Guidance is informed by the hierarchy of controls used to reduce 
exposure: engineering, administrative and work practices, and personal 
protective equipment. Engineering controls include isolation, 
ventilation and physical barriers. Administrative and work practice 
controls include social distancing, telecommuting, hand hygiene, cough 
etiquette, and training. Personal protective equipment or PPE include 
gloves, glasses, gowns, and respiratory protection. If exposure should 
occur, guidance also addresses the use of antiviral treatment to 
prevent or treat disease. Finally, should a vaccine become available, 
recommendations for immunization will be developed and disseminated. 
Guidance materials are being developed focused on the needs of specific 
worker populations and workplace settings; and to provide general 
information useful to all businesses. All of these workplace-related 
guidance materials are available at http://www.cdc.gov/niosh/topics/
H1N1flu/.
    We will continue to provide support to states and communities 
throughout this outbreak. In addition to the epidemiologic and 
laboratory support that CDC provides, CDC maintains the nation's 
Strategic National Stockpile of medications that may be needed for this 
or other outbreaks. As part of our pandemic preparedness efforts, the 
U.S. Government has purchased extensive supplies of antiviral drugs--
oseltamivir and zanamivir--for the Strategic National Stockpile. 
Laboratory testing on the viruses so far indicates that they are 
susceptible to oseltamivir and zanamivir. Acting quickly after we 
identified this virus and its potential impact on our population, we 
have released one-quarter of the states' share of antiviral drugs and 
personal protective equipment, to be used pursuant to emergency use 
authorizations issued by the FDA Commissioner, to help the states 
prepare to respond to the outbreak. As of Sunday, May 3rd--within weeks 
of a new virus having been identified--this deployment of the stockpile 
was completed for all states and areas.
    Whenever we see a novel strain of influenza, we begin our work in 
the event that a vaccine needs to be manufactured. Simultaneous efforts 
are underway within CDC, FDA, New York Medical College, and St. Jude, 
as well as international partners, to develop a vaccine seed strain 
specific to this virus--the first step in vaccine manufacturing. This 
is something CDC often initiates when we encounter a new influenza 
virus that has the potential to cause significant human illness. We 
have already isolated and identified the virus and steps are underway 
so that should a vaccine be needed, we can work towards that goal very 
quickly with interested manufacturers. HHS discussions to consider the 
needed pathways to provide rapid production of vaccine after the 
appropriate seed strain has been provided to manufacturers are 
currently ongoing. As this progresses, HHS operating divisions and 
offices including CDC, NIH, FDA, and ASPR/BARDA will work in close 
partnership.
    In closing, we are simultaneously working hard to understand and 
control this outbreak while also keeping the public and the Congress 
fully informed about the situation and our response. We are working in 
close collaboration with our federal partners, including our sister HHS 
agencies and other federal departments, as well as with other 
organizations that have unique expertise that helps us provide guidance 
for multiple sectors of our economy and society. While events have 
progressed with great speed, this will be a marathon, not a sprint. 
Even if this outbreak yet proves to be less serious than we might have 
initially feared, we can anticipate that we may have a subsequent or 
follow-on outbreak several months down the road. Steps we are taking 
now are putting us in a strong position to respond.
    The Government cannot solve this alone, and as I have noted, all of 
us must take constructive steps. Schools, childhood settings, and 
workplaces are critical to this effort. If you are sick, stay home. If 
children are sick, keep them home from school. Wash your hands. Take 
all of those reasonable measures that will help us mitigate how many 
people actually get sick in our country.
    Finally, it is important to recognize that there have been enormous 
efforts in the U.S. and abroad to prepare for this kind of an outbreak 
and a pandemic. The Congress has provided strong leadership and support 
for these efforts. Our detection of this strain in the United States 
came as a result of that investment and our enhanced surveillance and 
laboratory capacity are critical to understanding and mitigating this 
threat. While we must remain vigilant throughout this and subsequent 
outbreaks, it is important to note that at no time in our nation's 
history have we been more prepared to face this kind of challenge. As 
we face the challenges in the weeks ahead, we look forward to working 
closely with the Committee to best address this evolving situation.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Modzeleski?

   STATEMENT OF BILL MODZELESKI, ASSOCIATE ASSISTANT DEPUTY 
     SECRETARY, OFFICE OF SAFE AND DRUG-FREE SCHOOLS, U.S. 
                    DEPARTMENT OF EDUCATION

    Mr. Modzeleski. Good morning, Mr. Chairman, Congressman 
McKeon, and other distinguished members of the committee. I am 
Bill Modzeleski, associate assistant deputy secretary at the 
Department of Education's Office of Safe and Drug-Free Schools.
    I want to thank you for the opportunity to appear before 
this committee today to provide you with an overview of the 
department's actions during the 2009 H1N1 flu outbreak. This 
morning I want to provide an overview of the situation 
regarding school closings, summarize some basic principles that 
form the foundation of our response efforts, and if time 
permits, conclude with some of the actions we have taken 
recently to help schools and institutions of higher education 
to respond to the current outbreak of the H1N1 flu virus.
    Let me start by stating that the situation regarding 
schools remains somewhat fluid. That is, we have some schools 
opening while others remain closed.
    Of the 8 school days we have collected information on 
school closings, we saw daily changes. On Monday, April 27th, 
22 schools in three states had announced decisions to close for 
reasons related to the H2--H1, I should say--H1N1 flu. There 
were approximately 15,700 students impacted by those closings.
    By Tuesday of this week, the number of closures stood at 
726, representing 24 states and the District of Columbia, and 
these closures affected approximately 468,000 students. On May 
5th, the Centers for Disease Control and Prevention announced 
revised guidance on community mitigation that advised that 
student with flu symptoms stay home from school, that schools 
with confirmed or suspected cases of the flu not close.
    While it has been less than 48 hours since this revision 
was announced, we have already seen considerable change. 
Approximately 140 schools with 100,000 students reopened 
yesterday, and more are expected to reopen today. Overall, the 
school closures affected a relatively small number of students 
and staff, but created a considerable amount of concern.
    Although the scientists at CDC are cautiously optimistic 
about what they are learning about the virus, we must remain 
alert to the possibility that the nature of this current 
outbreak could change. We will continue to rely on five key 
principles as we work to help schools and institutions of 
higher education prepare for and respond to the range of 
crises, including a pandemic.
    First, our chief concern will continue to be the health and 
safety of students, faculty, and staff. Federal education 
statutes and regulations should not be an impediment to closing 
schools for health reasons. We are ready to consider requests 
for waivers related to the flu to the extent of the secretary's 
waiver authority.
    Next, we recognize that effectively managing crises such as 
the H1N1 flu outbreak requires many different agencies and 
organizations working together. The Department of Education 
can't do it alone. We will continue to collaborate with our 
colleagues from the Department of Health and Human Services, 
including the Centers for Disease Control, the Department of 
Homeland Security, and other federal agencies, to capitalize on 
the valuable expertise they possess. Working with them is also 
essential in ensuring that we provide a coordinated federal 
response.
    Next, we need to keep in mind that many of the most 
difficult decisions concerning response to the current flu 
virus must be made by state and local officials. While state 
and localities have a lot to do, a lot has already been done.
    States and localities, as well as the federal government, 
have already invested a significant amount of effort and 
planning for the pandemic flu. Every state has a pan flu plan, 
and every plan contains an appendix describing the roles of 
schools during an epidemic. We will continue to build on those 
planning efforts and support state and local education 
officials.
    Next, while the current outbreak of the H1N1 flu is the 
issue that brings me before the committee today, we believe 
that the best approach for schools and institutions of higher 
education to take preparing for an outbreak of an infectious 
disease or any other crisis situation is to develop an ``all 
hazards'' plan that addresses a variety of crises, from 
intruders and accidents to school shootings and the flu.
    Finally, our decisions about how schools and institutions 
of higher education are to deal with a crisis are based upon 
the fact that while crisis planning for schools has to consider 
the health and welfare of students and staff, the plan also 
needs to consider the educational needs of students. Crisis 
planning can't exist in a vacuum.
    Consistent with these general principles, we have taken 
several actions in the past week to support schools and 
institutions of higher education. In addition to tracking 
information about school closures, we, in coordination with the 
Centers for Disease Control and Homeland Security, provided 
opportunities for school officials to hear up-to-date 
information directly from scientists at CDC and to pose 
questions by hosting three conference calls. I am happy to say 
about 3,000 conference lines were used during those three 
calls.
    We also have developed and posted detailed guidance 
responding to a number of issues of specific concern to the 
schools and institutions of higher education, including school 
closures, and have developed a mechanism for school and other 
officials to submit questions concerning the flu to the 
department, and we are using these questions to help us better 
understand the challenges the schools and colleges are facing 
to identify issues on which we can develop and post additional 
guidance.
    I hope that you have found this overview helpful, but I 
would be pleased to answer any other questions you may have. 
Thank you.
    [The statement of Mr. Modzeleski follows:]

 Prepared Statement of William Modzeleski, Associate Assistant Deputy 
  Secretary, Office of Safe and Drug-Free Schools, U.S. Department of 
                               Education

    Good morning, Chairman Miller, Representative McKeon, and other 
distinguished members of the Committee. I am William Modzeleski, 
Associate Assistant Deputy Secretary, Office of Safe and Drug Free 
Schools, at the U.S. Department of Education (ED), and on behalf of 
Secretary Arne Duncan and the entire department I want to thank you for 
the opportunity to provide you with an overview of the Department's 
actions regarding the H1N1 flu.
    I also want to take this opportunity to thank our colleagues from 
the Department of Homeland Security, the Department of Health and Human 
Services, and the many other agencies that are participating in the 
coordinated Federal response to the H1N1 flu for their ongoing 
assistance and support for ED's response efforts.
    Although the situation continues to emerge, ED stands ready to act 
quickly based on our work in planning for a range of challenges and 
situations.
    In the current outbreak, there are many key pieces of information 
that are emerging on a daily basis. Accordingly, schools face many 
challenges, such as whether or not to close, the timing and length of 
school closures, and the impact on learning. ED's approach is 
predicated on the principle that we want every student, teacher, and 
staff person to be safe and healthy and we do not want Federal 
education rules or regulations to be an impediment to students' health 
and welfare.
    In keeping with this key principle of ensuring the health and 
safety ofstudents, we have worked with the Centers for Disease Control 
and Prevention (CDC) within the Department of Health and Human Services 
(HHS) to disseminate guidance on closing schools as part of a 
comprehensive community-mitigation strategy. The CDC recommendations 
are based on an evolving understanding of the virus, including its 
transmissibility and severity. We continue to work closely with the CDC 
and to monitor the changing situation.
    Authorities for closing schools vary between states and even 
sometimes among localities within states. State and local educational 
agencies, in coordination with their health counterparts, are 
responsible for the interpretation and implementation of CDC's 
guidance, including when, and for how long, to close schools. States 
and many localities have been planning for an influenza pandemic for 
several years now and most are depending on their plans to guide a 
range of actions, including communications strategies or enacting 
school closure procedures. Responses to the flu outbreak have varied 
but range from closing one school to closing all the schools in a 
district. On Monday, May 4th, 545 schools were closed, affecting 
341,298 students and 20,967 teachers and staff.
    We cannot predict what will happen in the future--near or distant--
with regard to how H1N1 will affect schools and institutions of higher 
education (IHEs). However, we do know that school closures will be 
affected by three key factors:
    <bullet> School districts' decisions about closure will be affected 
by what the outbreak looks like locally. If large numbers of students 
and staff are ill, we will see more closures. Conversely, if the 
illnesses and absences decline, we can anticipate that fewer school 
districts will close.
    <bullet> Second, the number of schools that close will be dependent 
upon mitigation guidance provided by the CDC. ED has encouraged and 
will continue to encourage school districts and IHEs to closely follow 
school closing guidance provided by the CDC. If the CDC calls for 
longer school closings we can anticipate that schools will close for 
longer periods and, hence, more students will be out of school. 
Conversely, if the situation changes and the CDC calls for schools to 
close for a shorter period of time or calls for fewer individuals to be 
excluded from school, we will likely see fewer schools closed.
    <bullet> Finally, closures will be based on the school calendar. 
Many institutions of higher education are at or near the end of their 
academic calendar. As for K-12 schools, the academic calendar is more 
varied with some districts about to close for summer vacation and 
others going until the end of June.
    As our understanding of the virus evolves, we will look to the CDC 
to analyze the data and make more definitive recommendations to 
optimally protect the health and safety of our communities.
    We will continue to collaborate with the CDC to ensure that any 
guidance is quickly disseminated to education partners and 
stakeholders, as we have been doing over the last two weeks. We have 
convened two calls for education stakeholders; the first call, held on 
April 27th, hosted 1700 lines and the second call, held on April 30, 
hosted 1300 lines, and we know that there were many more people 
listening. We are collecting daily information on closures of schools, 
districts, and IHEs, and providing this key information to our Federal 
partners to help them assess the impact of this virus. We have also 
posted information, including FAQs for school leaders and parents on 
our website, participated in stakeholders' outreach efforts, and 
created an internet address for the exchange of information with the 
field specifically about the flu, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="26404a536643420841495008">[email&#160;protected]</a>
    While we know that the current outbreak of 2009-H1N1 flu will be 
challenging, we believe that we have taken many actions over the past 
several years that provide a strong foundation for our current efforts. 
In 1995, when we were faced with assisting in the response to the 
bombing of the Murrah Federal Office Building in Oklahoma City, it 
became clear that we needed to develop capacity and expertise in 
emergency management. While the Department of Education is probably not 
the first or second organization on a list of Federal agencies with 
emergency management responsibilities, elementary and secondary schools 
and IHEs are profoundly affected by a broad range of crisis situations, 
and face a unique set of challenges in preparing for and responding to 
those situations. Over the past several years, we have focused our 
emergency management activities on helping schools and colleges and 
universities meet those challenges.
    Schools and IHEs face the same broad array of potential crisis 
situations as their communities--hurricanes, tornadoes, chemical 
spills, shootings, terrorist attacks, and outbreaks of infectious 
diseases, to name just a handful. As a result, we encourage schools and 
IHEs to ground their emergency management efforts in crisis plans that 
address all hazards through the four phases of emergency management 
planning--prevention-mitigation, preparedness, response, and recovery. 
This foundation should enable schools and IHEs to respond in a 
comprehensive and appropriate way.
    This approach is summarized in ED's publication ``Practical 
information Crisis Planning Guidance for Schools and Communities.'' The 
document, first released in 2001, was developed in collaboration with 
Federal, State, and local partners in school emergency management, and 
outlines the four-phase approach. ED recently released a similar guide 
for IHEs in January 2009.
    ED also provides funds to local school districts to support the 
development of emergency management plans for their schools under the 
Readiness and Emergency Management for Schools (REMS) program. The 
program requires grantees to partner with local first responders, 
develop all-hazards plans (including planning for an infectious disease 
outbreak), and incorporate the four phases of emergency management into 
their planning activities. To date, we've provided grants to more than 
600 LEAs across the country, totaling more than $175 million. In FY 
2008, in conjunction with our colleagues at the HHS' Substance Abuse 
and Mental Health Services Administration, we provided similar awards 
to the first cohort of 17 IHE grantees.
    ED also provides training and technical assistance to each of the 
REMS grantees; a basic course covers the four phases of emergency 
management while a more advanced curriculum addresses more specific 
emergency management issues that schools may face, including pandemic 
flu. In addition to training grantees, ED has provided the basic 
training course to another 600 school officials from public and private 
schools that are not grant recipients.
    Because we wanted to reach out to a broader range of school 
officials, we have also developed a technical assistance center that 
develops and implements a variety of training and technical assistance 
activities for school personnel. Over the past several years, we have 
developed and made available more than 40 short publications that 
highlight a range of key emergency management issues that schools may 
face.
    In addition to these and other activities related to emergency 
management for schools, ED has participated in a broad range of 
activities that specifically relate to an outbreak of pandemic flu, and 
that form the underpinning for our response efforts to the 2009-H1N1 
flu. We have worked with Federal and non-Federal partners since 2005 on 
planning for a potential pandemic. Specifically, we have been working 
to articulate questions about, and identify potential barriers to, 
implementing and carrying out appropriate community mitigation, 
consistent with CDC guidance on the scope and necessity of such 
efforts.
    We have worked to create tools and guidance for educators to help 
State and local entities address their unique planning needs, including 
a pre-packaged pandemic tabletop exercise that was pilot-tested during 
the summer of 2007 and disseminated to our Readiness and Emergency 
Management for Schools grantees. In response to a request for more in-
depth information on pandemic planning, we have developed and refined 
an ``advanced training'' on pandemic, as well as one on planning for 
infectious diseases in schools in general, which provides practical, 
hands-on information about planning for these types of situations that 
schools can use during a typical school year. We have presented 
information about pandemic planning, including considerations related 
to continuity of education, to a wide range of education audiences, 
including our grantees, representatives from private and independent 
schools, State and local education officials, and education-related 
associations. Additionally, we have identified examples of pandemic 
planning that others may use to inform their own planning efforts and 
have posted these examples on our website and on the REMS Technical 
Assistance Center's website.
    ED was actively involved in the creation of a planning guide for 
States as part of the comprehensive State pandemic planning effort in 
2007-2008. This education planning guide covers a range of 
considerations for State education leaders, including the provision of 
continuity of education, utilization of educational facilities, paying 
staff, and communicating with local educational agencies, staff, and 
families. During the planning process, we provided technical assistance 
to States through a webcast and a video teleconference. Last summer, 
States were asked to submit their full pandemic plans to the Federal 
government. In turn, various government agencies reviewed the sections 
relevant to their entities and rated those sections. Representatives 
from various offices at ED, in collaboration with experts on school 
closures from CDC, reviewed the States' education-sector plans.
    In closing, let me say that we recognize that we have a lot more 
work ahead of us. We are cognizant of the fact that even if the 
influenza outbreak quickly subsides, it may return at a later time. We 
are also cognizant of the fact that the 2009-H1N1 flu is but one crisis 
or emergency that schools have to be prepared to deal with. We have a 
very large system of schools and colleges in the U.S. and it is an 
unusual day when emergencies and crises don't happen. To prepare for 
these events, be they another outbreak of the flu, a hurricane, a 
school shooting, a student suicide, or an intruder, we need to ensure 
that every school and every IHE has an Emergency Management Plan--also 
know as a crisis plan--in place. That plan should address all types of 
situations and conditions--``all hazards;'' address all four phases of 
crisis planning: Prevention/mitigation, Planning, Response, and 
Recovery; be practiced on a regular basis; include an incident command 
component; and involve the entire community it its development.
    Over the remainder of the fiscal year we intend to take several 
actions that we believe will help schools and IHEs be better prepared 
to deal with crises and emergencies, including the flu. These actions 
include:
    <bullet> Making approximately 100 REMS awards to school districts 
and 20 to IHEs. These awards, totaling an estimated $31 million will 
enable the grantees to develop or improve their Emergency Management 
Plans. Those districts and IHEs that have not addressed issues related 
to a pandemic will be able to do so.
    <bullet> Outreach activities and technical assistance efforts that 
focus on ``lessons learned'' in the response to the H1N1 flu outbreak. 
Hosting training for new REMS grantees on emergency management issues. 
This will include a focus on preparing for, responding to, and 
recovering from an infectious disease outbreak.
    <bullet> Sponsoring a National Conference in August 2009 for 
approximately 1,500 educators. The conference will feature a plenary 
session and several workshops on the 2009-H1N1 flu.
    If we are to be successful in ensuring that are schools and student 
are safe and healthy, schools will need to make ``preparedness'' a 
priority, and we believe that we can provide valuable assistance to 
schools and IHEs as they work to develop and expand their emergency 
management capacity.
    I have included some additional material for the record that 
provides more details about the resources that we are making available 
to schools and IHEs.
    I look forward to responding to any questions that you may have.
                                 ______
                                 
    [Additional material submitted by Mr. Modzeleski follows:]

    [Pandemic Flu and General Emergency Management Resources, U.S. 
     Department of Education, Office of Safe and Drug-Free Schools]

                     EMERGENCY MANAGEMENT RESOURCES

                             Web Resources

U.S. Department of Education (ED)'s Emergency Planning Web site
    This Web site offers a ``one stop shop'' for emergency management 
information for local educational agencies (LEAs) and institutions of 
higher education (IHEs) available from the U.S. Department of 
Education.
    <bullet> Available at: www.ed.gov/emergencyplan
Readiness and Emergency Management for Schools (REMS) Technical 
        Assistance (TA) Center
    Established in October 2004, the REMS TA Center offers a variety of 
resources including a list of current grantees, emergency management 
related publications, links to relevant emergency management 
organizations, and an opportunity to submit individual questions for 
technical assistance support.
    <bullet> The TA Center's Web site is http://rems.ed.gov
National Clearinghouse for Education Facilities (NCEF) Web site
    The NCEF, funded by ED, provides information on planning, 
designing, funding, building, improving, and maintaining safe, healthy, 
high performance schools. The Web site includes links to campus safety 
assessment and campus security resources for colleges and universities.
    <bullet> Accessible at www.edfacilities.org
Safeguarding America's Colleges--Web cast
    Aired in October 2008, this Web cast provided an opportunity to 
talk about OSDFS' Emergency Management for Higher Education grant; talk 
about rights under the Family Educational Rights and Privacy Act; 
highlight higher education institutions that are leading the effort to 
enhance campus safety; and, provided user-friendly tips on ensuring the 
safety, health and security of students.
    <bullet> The archived Web cast is accessible at:
http://www.connectlive.com/events/ednews/20081021.html.
Emergency Planning for Students with Disabilities and Special Needs
    Taking place in May 2009, this Webinar focused on emergency 
management planning for students with disabilities and special needs. 
In particular, it highlighted actions to take before, during, and after 
an emergency occurs. It also featured a case study of the Upper Darby 
School District.
    <bullet> The archived webinar materials are available at:
http://rems.ed.gov/index.cfm?event=webinars--archives.
Web casts on Emergency Management for Schools Training
    Four Web casts and accompanying materials look at the four phases 
of emergency management: prevention-mitigation, preparedness, response, 
and recovery. The Web casts were filmed at Emergency Management for 
Schools training meetings provided for school staff and administrators 
in March 2007.
    <bullet> Powerpoints and Web casts available at:
http://www.connectlive.com/events/depteduphilly0207/
School Safety Web cast
    In November 2006, the U.S. Department of Education presented a one-
hour Web cast to provide parents, educators, school administrators and 
local safety personnel with an opportunity to review key considerations 
related to school emergency management planning.
    <bullet> The archived Web cast is accessible
www.ConnectLive.com/events/edschoolsafety. Software to view the Web 
cast is available free at that site.
Training and Technical Assistance
            Basic Emergency Management for Schools Training
    The ``Emergency Management for Schools'' training provides an 
opportunity for school personnel to receive critical training in 
emergency management. The training focuses on emergency plan 
development within the framework of the four phases of emergency 
management.
    <bullet> Power points from the last training in 2008 are available 
online at:
http://rems.ed.gov/index.cfm?event=trainingsArchived#EMST--SF--CA--08
    <bullet> Development is currently underway for online interactive 
modules for this training.
            Advanced Emergency Management for Schools Training
    Starting in 2008, OSDFS began to create, in collaboration with 
school safety experts in the field, a series of ``advanced training'' 
power points for school-based emergency management. Each PowerPoint is 
designed to last for 1.5--2 hours of training and provides focused 
attention on a specific area such as: tabletops and drills, pandemic 
planning, continuity of operations, special needs, etc.
    <bullet> The current versions of the power points are available at: 
http://rems.ed.gov/index.cfm?event=trainingsArchived#FY07FGM--CH--IL--
08.
Publications
            Practical Information on Crisis Planning: A Guide for 
                    Schools and Communities
    First published in 2003, the U.S. Department of Education developed 
``Practical Information on Crisis Planning: A Guide for Schools and 
Communities'' to identify some of the key principles in developing 
emergency management plans. This document is based on the four phases 
of emergency management and is the premier document for emergency 
planning for schools.
    <bullet> The entire Guide can be downloaded at:
http://www.ed.gov/admins/lead/safety/emergencyplan/crisisplanning.pdf
            Action Guide for Emergency Management at Institutions of 
                    Higher Education
    Released in January 2009, the Action Guide provides a series of 
suggestions and tips for institutions of higher education interested in 
improving their emergency management planning efforts. Created in 
collaboration with external experts, the Action Guide is based on the 
four phases, all-hazards approach to emergency management.
    <bullet> The entire Action Guide can be downloaded at:
http://www.ed.gov/admins/lead/safety/emergencyplan/remsactionguide.pdf
            Guide to School Vulnerability Assessments: Key Principles 
                    for Safe Schools
    This publication, released in 2008, is a companion guide to the 
Practical Information on Crisis Planning Guide. It offers general 
information on establishing vulnerability assessment teams and 
selecting vulnerability assessment tools.
    <bullet> The guide can be downloaded at:
http://rems.ed.gov/views/documents/VA--Report--2008.pdf
            Threat Assessment in Schools
    The U.S. Department of Education and the U.S. Secret Service 
established the Safe School Initiative, a study of 37 school shootings 
and other school-based attacks that took place between 1974 and 1999. 
Through this initiative, the two agencies produced guidance and tools 
for schools putting forth a process for identifying, assessing and 
managing students who may pose a threat of targeted violence. These 
guides are intended for collaborative use by school personnel, law 
enforcement officials and others with protective responsibilities in 
our nation's schools. Most recently, the initiative has produced an 
interactive CD-ROM presenting two hypothetical school scenarios to be 
used for further developing the assessments team's skills.
    <bullet> Final Report and Findings: Implications for Prevention of 
School Attacks in the United States.
    <bullet> Accessible at:
http://www.ed.gov/admins/lead/safety/preventingattacksreport.doc
    <bullet> Threat Assessment in Schools: A Guide to Managing 
Threatening Situations and to Creating Safe School Climate
    <bullet> Accessible at:
http://www.ed.gov/admins/lead/safety/threatassessmentguide.pdf
    <bullet> A Safe School and Threat Assessment Experience: Scenarios 
Exploring the
    Findings of the Safe School Initiative
    <bullet> Accessible through EDPubs at www.edpubs.org/
            Bomb Threat Response: An Interactive Planning Tool for 
                    Schools
    OSDFS and The Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF) collaborated to develop a tool (CD) for schools and law 
enforcement. The CD offers a comprehensive guide on how to best respond 
to bomb threats in schools. The planning tool offers guidance for 
schools administrators and law enforcement to develop policies specific 
to the school district and its unique needs. The ``Bomb Threat 
Response'' also presents guidelines for how to communicate during the 
response phase.
    <bullet> Accessible at http://www.threatplan.org/
    Emergency Preparedness Publications produced by the REMS TA Center:
    <bullet> REMS Express Newsletters
    <bullet> Newsletters provide comprehensive information on key 
issues in school emergency management.
    <bullet> Available online at: http://rems.ed.gov/
index.cfm?event=express
    <bullet> Lessons Learned
    <bullet> The Lessons Learned series offers brief summaries of 
actual school emergencies and the resulting lessons learned by schools.
    <bullet> Available online at: http://rems.ed.gov/
index.cfm?event=lessons
    <bullet> Helpful Hints
    <bullet> Helpful Hints offer a ``snapshot'' overview of school 
emergency preparedness topics.
    <bullet> Available online at: http://rems.ed.gov/
index.cfm?event=hints
            NIMS Implementation Activities for Schools and Higher 
                    Education Institutions
    The National Incident Management System (NIMS) was established 
March 1, 2004, following the Homeland Security Presidential Directive-5 
(HSPD-5). All local educational agencies (LEAs) and institutions of 
higher education (IHEs) who receive federal preparedness funds are 
required to support the implementation of NIMS.
    <bullet> The complete guidance is available at:
http://rems.ed.gov/views/documents/NIMS--
ComprehensiveGuidanceActivities.pdf

                    PANDEMIC PREPAREDNESS RESOURCES

          Guidance for Educators for Prolonged School Closures

    The U.S. Department of Education analyzed and reviewed our current 
authorities and possible flexibilities under No Child Left Behind and 
other relevant legislation. These flexibilities are summarized in this 
guidance, which could allow a great deal of flexibility for state and 
local educational agencies if necessary.
    <bullet> The guidance can be found at:
http://www.ed.gov/admins/lead/safety/emergencyplan/pandemic/guidance/
pan-flu-guidance.pdf.
            Pandemic Flu: A Planning Guide for Educators
    The U.S. Department of Education published this brochure to provide 
a brief summary of pandemic-related concerns, as well as minimum 
elements and considerations for planning for the possibility of 
prolonged school closures.
    <bullet> This brochure can be found at:
http://www.ed.gov/admins/lead/safety/emergencyplan/pandemic/planning-
guide/index.html
            Examples of Plans and Planning Efforts
    The U. S. Department of Education gathered information on state and 
local pandemic planning efforts to help others begin or refine their 
pandemic influenza plans. After examining plans and information from 
school districts across the country, a panel of experts in the field of 
emergency management identified examples of strong planning efforts or 
useful resources.
    <bullet> These samples can be found at:
http://www.ed.gov/admins/lead/safety/emergencyplan/pandemic/
sampleplans/index.html
            REMS Advanced Training on Pandemic
    In August 2008, OSDFS piloted our new training, ``Business Not as 
Usual: Preparing for Pandemic Influenza.'' Pandemic planning is a 
requirement of all REMS and EMHE grantees and this PowerPoint provides 
an advanced look at the history and background of infectious diseases, 
as well as a focused four-phased approach schools can use to deal with 
a potential pandemic outbreak.
    <bullet> The current version of this PowerPoint is available in PDF 
format at:
http://rems.ed.gov/views/documents/Training--CHIL07--
PrepPandemicInfluenza.pdf
            Pandemic Influenza Tabletop Exercise
    In August 2007, OSDFS piloted a tabletop exercise at our National 
Conference. This tabletop exercise reviewed the rules, objectives, and 
scheduling requirements for a pandemic influenza tabletop exercise. The 
materials include participant manuals, facilitator's manuals, and a 
PowerPoint and the session provides background information on pandemic 
influenza as well as scenario briefings.
    <bullet> The materials associated with this exercise are available 
at:
http://rems.ed.gov/index.cfm?event=PandemicPreparedns4Schools.
            Pandemic Flu.gov
    The U.S. Department of Health and Human Services manages a Web site 
focused on bringing up-to-date government pandemic information to 
individuals, families, schools, businesses and communities across the 
nation. Presented on the Web site is a School District (K-12) Pandemic 
Influenza Planning Checklist.
    <bullet> Accessible at http://www.pandemicflu.gov
            Federal Guidance to Assist States
    During 2007-2008, the Federal government collaborated to create a 
comprehensive planning guidance for states. The Department of Education 
created guidance for the education sector on school closure and student 
dismissal for childcare, K-12 schools, and Institutions of Higher 
Education. The guidance included considerations for continuity of 
education, communications, and alternative use of school facilities. 
This guidance can be found in Appendix B.4.
    <bullet> The guidance can be accessed at:
http://www.pandemicflu.gov/news/guidance031108.pdf.
            Webcast Series on Pandemic Influenza: State Pandemic 
                    Planning
    On April 30, 2008, the U.S. Departments of Education, Labor, and 
Agriculture appeared on a webcast to provide guidance to states on 
planning efforts. Specifically, the U.S. Department of Labor focused on 
the potential impacts of a pandemic on the workforce and the U.S. 
Department of Agriculture discussed approaches to providing food to 
children who use the school meals program.
    <bullet> The webcast can be viewed at:
http://www.pandemicflu.gov/news/panflu--webinar3.html.
            Assessment of State's Operational Plans to Combat Pandemic 
                    Influenza
    The U.S. Government reviewed and assessed state's plans, submitted 
during the summer of 2008. The results of this assessment process are 
posted online, organized by focus area.
    <bullet> Accessible at:
http://www.pandemicflu.gov/plan/states/state--assessment.html.
Additional Web Resources Distributed to ED Grantees in April 2009 to 
        Assist Schools and IHEs in Understanding, Planning for, and 
        Responding to, H1N1
            Centers for Disease Control and Prevention
    This site includes the clearinghouse for all H1N1 information.
    <bullet> http://www.cdc.gov/swineflu/index.htm
    <bullet> Interim CDC Guidance for Nonpharmaceutical Community 
Mitigation in Response to Human Infections with Swine Influenza (H1N1) 
Virus:
http://www.cdc.gov/swineflu/mitigation.htm
    <bullet> Update on School (K-12) Dismissal and Childcare 
Facilities: Interim CDC Guidance in Response to Human Infections with 
the 2009 Influenza A H1N1 Virus, available at:
http://www.cdc.gov/h1n1flu/K12--dismissal.htm
    <bullet> H1N1 Flu (Swine Flu) Infections Alert for Institutions of 
Higher Education:
http://www.cdc.gov/h1n1flu/college-alert.htm
            World Health Organization (WHO)
    This world body provides updates on H1N1.
    <bullet> http://www.who.int/csr/don/en/
            Readiness and Emergency Management for Schools (REMS) 
                    Technical Assistant Center
    <bullet> Pandemic Preparedness:
http://rems.ed.gov/index.cfm?event=PandemicPreparedns4Schools
            IAEM-USA
    This organization is tracking closures of Higher Education 
Campuses:

   http://maps.google.com/maps/ms?ie=UTF8&hl=en&msa=0&ll=39.571822,-
95.625&spn=36.948082,67.851563&z=4&msid=109878326824967605990.000468a80b
                              7ca216e4d3a

                         EDUCATIONAL RESOURCES

Joint Guidance on the Application of the Family Educational Rights and 
     Privacy Act (FERPA) and the Health Insurance Portability and 
      Accountability Act of 1996 (HIPAA) to Student Health Records

    In response to the ``Report to the President on Issues Raised by 
the Virginia Tech Tragedy,'' ED and Health and Human Services issued 
new guidance that addresses the interplay between FERPA and the HIPAA 
Privacy Rule at elementary and secondary levels, as well as at the 
postsecondary level. It also addresses certain disclosures that are 
allowed without consent or authorization under both laws, especially 
those related to health and safety emergency situations.
    <bullet> Accessible at:
http://www.ed.gov/policy/gen/guid/fpco/doc/ferpa-hippa-guidance.pdf.
            Higher Education Center for Alcohol and Other Drug Abuse 
                    and Violence Prevention
    The Center's mission is to assist ED in serving IHEs in developing 
and implementing policies and programs that will foster students' 
academic and social development and promote campus and community safety 
by preventing the harmful effects of alcohol and other drug use and 
violence among college students. The Center is a primary provider of 
services in alcohol and other drug abuse and violence prevention in 
higher education founded upon state-of-the-art knowledge and research-
based strategies.
    <bullet> Accessible at http://www.higheredcenter.org/
            OSDFS National Conference
    OSDFS will be hosting its National Conference August 3-5, 2009, at 
the Gaylord National Resort and Convention Center. The Conference will 
address issues related to emergency management; health, mental health, 
and physical education; broad-based issues related to alcohol, drug and 
violence prevention; civic and character education; scientifically-
based programs; and many other areas concerning drug and violence 
prevention.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Jack, welcome to the committee.

     STATEMENT OF JACK O'CONNELL, SUPERINTENDENT OF PUBLIC 
        INSTRUCTION, CALIFORNIA DEPARTMENT OF EDUCATION

    Mr. O'Connell. Thank you very much, Mr. Chairman. Thank 
you, Mr. Chairman, and Congressman McKeon, and all the members 
of the committee. A pleasure to be here to address the recent 
outbreaks of the H1N1 flu in California, specifically the 
impacts that it has had on our public education system.
    I am pleased that the Centers for Disease Control has 
recently determined that the automatic school-wide dismissal of 
all of the students at a particular school need not occur with 
even a one confirmed or highly suspicious case of this virus. 
Clearly, in California local health officials have the ultimate 
jurisdiction to close our school and to dismiss all of our 
students.
    I am pleased at this new guidance, as more and more 
information becomes available and better known will allow more 
of our students to remain in school, on task, preparing for 
their successful future. I also appreciate greatly the initial 
concern for our schoolchildren and our entire staff at 
Education that led to the recommendations of dismissing all of 
our students from any campus that had a confirmed or even a 
suspected case of this virus.
    CDC still wants, as you have heard earlier, all of our 
steps to be taken. Those steps--and try to repeat them all the 
time--to wash hands frequently, duration of at least 20 seconds 
with soap and water; if you are going to cough or sneeze, the 
students have taught me, Mr. Chairman, do the Dracula sneeze 
into your arm, slowly into the crux of your elbow; and 
obviously, as has already been stated, if you are sick, stay 
home, including from school.
    I am continuing to encourage our schools, our school 
districts, to stay in close contact with local public health 
officials. We need to do an even better job of monitoring, as 
the chairman pointed out, the number of cases that we have, the 
number of illnesses, and we need to do a better job of tracking 
absences that also are directly attributable to the flu.
    If I might briefly, Mr. Chairman, I would like to walk 
through the steps that we have taken during the last couple of 
weeks at the California Department of Education with our school 
community and our health community since the outbreak of the 
H1N1 virus. We did stay in very close contact with both state 
and local departments of health in California, with our 
schools, our school districts, including our charter schools. 
Within hours of the first alert of the H1N1 virus, my 
department issued a release to every school, every school 
district, about the precautionary steps that students need to 
take in order to make sure that they remain safe.
    We have numerous information available--posters, sample 
letters--easily downloadable to schools on how to prevent and 
how to secure, through precautionary steps, for our students 
and our staff to remain safe. And again, this is the wash your 
hands posters, and how to sneeze, and if you are sick stay 
home.
    We have also received some reports from some schools in 
California, Mr. Chairman, that soap was not available in some 
restrooms for our students and our staff. Clearly, that is 
unacceptable. We need to have soap or an alcohol-based hand 
sanitizer available at all times to our schools, to our 
students and our staff.
    We also developed, at the Department of Education, a 
special link on our Web site to keep school districts informed 
of those cases that we knew about, what schools were, in fact, 
dismissed, and also all press releases that were issued by 
either the educational community or the public health community 
in this area. And then just last Friday, we conducted a 
statewide conference call where we asked and invited each of 
our over 1,000 school districts to have the appropriate person 
online to talk and to ask questions to Dr. Bonnie Sorensen, who 
is a deputy director for the California Department of Public 
Health.
    Every school district and almost every county was invited--
every county was invited. Dr. Sorensen had an opportunity to 
brief school district officials on the latest guidance for 
potential dismissal of all students at their school as it 
related to the H1N1 virus. Numerous questions were asked; 
schools wanted to know the most recent information and also 
trends.
    As of Tuesday, just 2 days ago, in California, 37 public 
schools had been ordered shut by local public health officials. 
To make Congressman McKeon's point, that is 37 out of over 
9,000 schools in the state of California.
    I believe our schools are much more relieved by the most 
recent guidelines by CDC and also California Public Health. We 
all understand that this clearly is an evolving process. 
Guidelines would need to change and update for more and more 
information. I have always stressed the importance of the 
school community to work closely with county public health, 
because they ultimately have final say on dismissal of 
students.
    I also wanted to share with you a major topic of concern 
for school districts. How would these school closures or the 
increase in absences when parents choose to keep their students 
home fearing a potential impact, affect our state standardized 
tests? This is the testing window in California today for our 
standardized testing as well as the California High School Exit 
Exam.
    We in California are trying to address this on a case-by-
case basis. We are trying to make the accommodations necessary 
for the schools and school districts, and we are working with 
our contractors and our vendors. We have also communicated with 
the federal Department of Education regarding this issue on how 
school closures would be impacted, for example, on 
participation rates, to make sure that we meet both our 
academic performance index and adequate yearly progress rates, 
and also reporting schedules.
    Some participation rates may, in fact, be affected by 
parents who just simply keep their kids home out of fear. The 
response from the federal department has been very, very 
helpful. They understand, they are very empathetic, and they 
have committed to work with us, and we are most appreciative of 
that.
    And then lastly, I wanted to make an issue also to--
briefly, if I may--we need to have better communication between 
the field and our state offices in my department. I believe we 
do need to establish a system, really protocols, so that we 
know how many schools, how many students have actually been 
affected. We want to develop easy reporting procedures so that 
we can make better decisions based upon how many students we 
are actually talking about.
    And finally, Mr. Chairman, I believe that this issue also 
highlighted, in my opinion, again, a real need for school 
nurses, school health professionals, at the school site. In 
California, as I mentioned, over 9,000 schools, 6.3 million 
students, over 330,000 teachers, but yet we have only 2,844 
school nurses. That ratio is 2,227 students to one school 
nurse. That is one of the largest ratios in the country.
    Given the recent budget reductions in many local school 
districts, many schools have been left without sufficient 
health care professional personnel. I think perhaps more school 
nurses could have helped us with early detection and even 
prevention.
    Again, thank you for the opportunity to be here. I greatly 
appreciate both the Obama administration and this Congress for 
helping us improve our educational delivery system throughout 
California and, indeed, the entire nation.
    Thank you, Mr. Chairman.
    [The statement of Mr. O'Connell follows:]

 Prepared Statement of Jack O'Connell, California State Superintendent 
                         of Public Instruction

    Thank you Chairman Miller and members for the opportunity to 
address the recent outbreaks of the H1N1 flu in California, but more 
specifically in our schools.
    I would like to start by saying that although there are currently 
103 confirmed cases of H1N1 flu in California, I am pleased that the 
Centers for Disease Control has determined that the level of severity 
of the H1N1 flu does not warrant automatic school-wide student 
dismissal even in instances of a confirmed case of the virus. While we 
recognize that local health officials may always determine if it is 
necessary to close a campus due to a public health threat, this new 
guidance will allow our schools to resume their normal operations and 
keep healthy students in class and learning.
    I also appreciate the initial concern for our school children and 
staff that lead to the recommendation of dismissing students from any 
campus that had a confirmed or suspected case of the infection.
    It is important to note that the CDC still recommends that we 
stringently adhere to the procedures we can all use to keep ourselves 
and our schools healthy: Students and staff who are sick should stay 
home. Everyone should cover their coughs and sneezes, and frequently 
wash their hands with soap and water or use hand sanitizer.
    I also continue to encourage schools and districts to stay in close 
contact with public health officials for any new information about this 
flu virus and any potential future changes in student dismissal policy.
    I would now like to walk you through the steps the California 
Department of Education has taken to address the flu outbreak.
    Since the initial flu outbreaks was reported, my department and I 
have stayed in close and regular contact with officials from the 
California Department of Public Health and our local education agencies 
(LEA's), including districts, county offices of education, and charter 
schools.
    Within hours of the first alert from the California Department of 
Public Health about the H1N1 virus, my department advised the education 
community about the threat and reminded them about flu prevention 
information resources that my Department has made available. We also 
strongly encouraged schools to teach students and teachers to take the 
following measures to guard against the spread of H1N1:
    <bullet> encourage students and staff to stay home if they are 
sick;
    <bullet> urge individuals to cover their coughs and sneezes with a 
tissue or by covering with their arms; and
    <bullet> advise students and school staff to frequently wash their 
hands thoroughly with soap and water, or an alcohol based hand 
sanitizer.
    We have received reports that some do not have soap for student 
use, so I have advised local school leaders that they must make sure 
that soap or alcohol based hand sanitizers, are made available for use 
by students and school staff.
    We have kept schools up to date about the flu outbreak through a 
special link on our Web site, as well as through a series of letters, 
press releases, and public events. And in order to achieve an even 
higher level of communication, last Friday I invited Dr. Bonnie 
Sorensen, the Deputy Director of the California Department of Public 
Health to join me on a statewide conference call with district and 
county office of education leaders. The purpose of the call was to 
brief school officials on the latest guidance on student dismissal 
policies due to H1N1, emphasize the importance of sharing the health 
protection information, and to respond to questions from the field 
about the situation.
    As you can imagine, our schools have been particularly concerned 
about keeping up to date on the latest guidance from the CDC and the 
California Department of Public Health in respect to student dismissal 
policies. As of Tuesday of this week, 37 public schools had been 
ordered by a local health officer to dismiss students, based on the 
existing guidance at the time.
    Our schools are greatly relieved that this week the Center for 
Disease Control and the California Department of Public Health revised 
their student dismissal guidance. But, throughout this evolving 
situation, I have stressed to our education community that we must stay 
in close touch with our public health community and that a public 
health officer always has the final say as to whether or not students 
should dismiss student from campus.
    Another matter that I addressed during this briefing is testing.
    We received numerous questions from local districts about how the 
flu outbreak and school closures would affect the administration 
deadlines of two of our statewide student examination: Standardized 
Testing and Reporting or STAR program and the California High School 
Exit Exam, also known as CAHSEE.
    Given the current circumstances, we are addressing these concerns 
on a case by case basis, and my staff has been communicating with our 
testing contractors and vendors to talk about any necessary 
accommodations needed for affected schools. However, if the school 
closures were to resume, or be ordered for an extended period of time 
in a future public health emergency this could become a bigger problem. 
To remedy any issues that may arise, I am working with the 
Schwarzenegger Administration on options to give my office the ability 
to extend or modify the testing administration and release dates of 
these exams as needed.
    In addition, my staff has been in touch with the U.S. Department of 
Education regarding the potential need for flexibility on 
accountability requirements--like participation rates and reporting 
schedules. I am concerned that participation rates have been affected--
not by student dismissal policies, but by the ``worried well''--healthy 
students whose parents kept them home out of fear.
    Generally speaking, I feel very strongly that the communication 
efforts at the state level, between my department and the department of 
public health, have been very good.
    I also believe that the line of communication that is ongoing 
between the California Department of Education and our local education 
agencies is very strong, but could be improved. For example, we 
discovered that we did not have a system in place to track and report 
the individual schools that had been ordered to dismiss students due to 
H1N1. My office is working with the County Offices of Education to 
developing an easy-to-use reporting process so that the state could be 
kept up to date about any school impacted by an order to dismiss 
students. While we hope we never need it, this system will save time 
and provide valuable information to the public.
    Another issue that certainly needs addressing in order to improve 
our response to such outbreaks is school nurses.
    At last count, there are approximately 2,844 nurses who serve 
California's 6.3 million public school students. That translates to a 
ratio of 2,227 students to every one school nurse, the largest student-
to-nurse ratio in the country. This in no way, shape or form provides 
effective healthcare for the increasing numbers of students with 
complex chronic and immediate health needs that require daily care on 
our school campuses. If we had more school nurses on our campuses, 
perhaps they could have played an even greater role in early detection 
and prevention efforts.
    I feel there is definitely a role for the federal government to 
play in both of these matters not only for California, but for every 
state.
    I have thus far been encouraged by the Obama Administration's and 
Congress' willingness to listen to the concerns facing California's 
educational system, and I am grateful for the opportunity to address 
this committee.
    I look forward to more dialogues like today's. Thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Jordan?

    STATEMENT OF JORDAN BARAB, ACTING ASSISTANT SECRETARY, 
         OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION

    Mr. Barab. Thank you. Chairman Miller, Ranking Member 
McKeon, and members of the committee, thank you for this 
opportunity to discuss the Occupational Safety and Health 
Administration's strategy for the protection of American 
workers from this new strain of influenza A 2009 H1N1.
    During an influenza pandemic, as we all realized, the 
workplace can be a source of transmission, just as in other 
settings. Fortunately, because OSHA has previously prepared for 
a possible outbreak or pandemic related to the avian influenza 
virus, the agency is now fully prepared to address the dangers 
of the 2009 H1N1.
    The full range of OSHA's training, education, enforcement, 
technical assistance, and public outreach programs will be used 
to help employers and workers protect themselves at work. 
Preparation is critical. Proper planning will allow employers 
to better protect their employees and reduce the impact of a 
pandemic on society and the economy.
    OSHA has developed guidance to help employers determine the 
most appropriate work practices and precautions to limit the 
impact of the influenza pandemic. Because pandemic-related 
health and safety risks are greater in certain workplaces, OSHA 
is focusing its direct efforts on educating employers and 
employees in the high risk exposure categories.
    OSHA uses its occupational risk pyramid for pandemic 
influenza, which is projected on the screen, for both its own 
determination and for employers to determine those workplaces 
that are at higher exposure risk level. The pyramid visually 
demonstrates that only a small portion of workers are at the 
highest exposure risk level.
    In response to the 2009 H1N1 outbreak, OSHA's current 
outreach efforts are primarily focused on high risk and very 
high risk workers--those who have direct contact with infected 
individuals as part of their job responsibilities, such as 
health care workers and first responders. OSHA recognizes the 
importance of protecting health care workers on whom this 
country relies to identify, treat, and care for individuals 
with the flu.
    Our front line health care workers are the foundation upon 
which our health care system is built. If they are not able to 
work due to illness, or unwilling to work due to fears for 
their health, then individual patients and the country's entire 
health care structure will suffer.
    To help health care employees and workers prepare for an 
influenza pandemic, OSHA has developed a pandemic flu 
preparedness and response guidance for health care workers and 
employers. This publication provides valuable information and 
tools, which health care workers and health care facilities can 
use to protect their employees.
    If we expect our health care workers to come to work each 
day during a pandemic, then their employers have a 
responsibility to ensure that they have the best protection, 
including engineering controls, administrative controls, 
appropriate respirators, and other personal protective 
equipment. And I also want to remind you that we can't forget 
the custodians, security guards, and administrative employees 
and maintenance workers who support these high risk workers. 
While generally not at high risk themselves, if we are to 
expect them to report to work every day to carry out their 
critical functions, they also need to be educated about the 
virus, their level of risk, and in situations where they are at 
risk, in how they need to protect themselves.
    It is our expectation that most of this nation's hospital 
and health care institutions, where workers are clearly at 
exposure risk, are fully prepared to provide that training, 
equipment, and protection, and if they are not now prepared, 
that they are working hard to finalize plans to ensure that 
they will soon be ready for an outbreak. These plans should 
include ordering and stockpiling respirators and other personal 
protective equipment, conducting fit testing, medical 
evaluation, and training for those required to wear 
respirators. OSHA and CDC have distributed extensive 
information on how to protect workers.
    Employers play a key role in protecting employees' safety 
and health, and OSHA will continue to provide them with the 
technical assistance they need. But OSHA also stands prepared 
to use its existing authority to aggressively enforce safe work 
practices to ensure employees receive appropriate protection.
    In appropriate circumstances, OSHA will use the General 
Duty Clause of the Occupation Health Act, which requires that 
employers follow the practices that public health experts agree 
are necessary to protect workers' health. OSHA also has 
standards addressing housekeeping and personal protective 
equipment as well as a respirator standard that requires a 
complete respiratory protection program for employees.
    It is the employer's responsibility to ensure that we have 
the protection and training that workers need--when to wear a 
respirator, what kind of respirator, how to get the respirator 
fit tested and wear it properly, when to wear gloves, and how 
to put on and take off personal protective equipment. OSHA is 
also developing additional information for workers and their 
employers on the pandemic influenza, including fact sheets and 
quick cards that are appropriate for workers to use. Many of 
these materials are on our Web site, and also on 
pandemicflu.gov.
    Mr. Chairman, I characterize the situation for the 
workforce just as the president described it for the nation: 
cause for deep concern but not panic. I am very confident in 
the expertise of OSHA's medical, scientific, compliance 
assistance and enforcement personnel. OSHA is prepared to 
answer the threat and will protect the workforce.
    I will keep this committee informed on OSHA's efforts to 
protect working men and women from the pandemic flu exposure. 
Thank you very much.
    [The statement of Mr. Barab follows:]

  Prepared Statement of Jordan Barab, Acting Assistant Secretary for 
        Occupational Safety and Health, U.S. Department of Labor

    Chairman Miller, Ranking Member McKeon, Members of the Committee: 
Thank you for this opportunity to discuss the Occupational Safety and 
Health Administration's (OSHA's) strategy for the protection of 
American workers from the new strain of Influenza A (2009-H1N1) virus. 
During an influenza pandemic, transmission can occur in the workplace 
just as it takes place in other settings. A pandemic may also disrupt 
many work operations and could conceivably cause major losses to our 
economy. Fortunately, because of the work OSHA has done in preparing 
for a possible outbreak of a pandemic related to the Avian Influenza 
(H5N1) virus, the agency is fully prepared to address the dangers of 
the 2009-H1N1 virus. The full range of OSHA's training, education, 
enforcement, and public outreach programs will be used to help 
employers and workers protect themselves at work.
    Preparation is critical. Proper planning will allow employers in 
the public and private sectors to better protect their employees and 
lessen the impact of a pandemic on society and the economy. OSHA has 
developed guidance to help employers determine the most appropriate 
work practices and precautions to limit the impact of an influenza 
pandemic. Because pandemic-related health and safety risks are greater 
in certain workplaces, OSHA is focusing its direct efforts on educating 
employers and employees in the higher-risk exposure categories. OSHA 
uses its ``Occupational Risk Pyramid for Pandemic Influenza'' to 
determine those workplaces that are at a higher exposure risk level. 
The Pyramid visually demonstrates that only a small portion of workers 
are at the highest exposure risk level (see https://www.osha.gov/
Publications/OSHA3327pandemic.pdf).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In response to the 2009-H1N1 outbreak, OSHA's current outreach 
efforts are aimed at high-risk and very-high risk workers--those who 
have direct contact with infected individuals as part of their job 
responsibilities--such as health care workers and first responders. 
OSHA recognizes the importance of protecting healthcare workers on whom 
this country will rely to identify, treat and care for individuals with 
the flu. Our frontline healthcare workers are the foundation upon which 
our health care system is built. If they are not able to work due to 
illness, or unwilling to work due to fears for their health, individual 
patients and the country's entire health care structure will suffer. To 
help health care employers and workers prepare for an influenza 
pandemic, OSHA has developed ``Pandemic Influenza Preparedness and 
Response Guidance for Healthcare Workers and Employers.'' The 
publication is available on OSHA's website, and provides valuable 
information and tools about healthcare facility responsibilities during 
pandemic alert periods.
    If we are to expect our healthcare workforce to come to work each 
day during a pandemic, then their employers have a responsibility to 
ensure they have the best protection, including appropriate respirators 
and other personal protective equipment. And let's not forget the 
custodians, security guards, administrative employees and maintenance 
workers who support those high-risk workers. While generally not at 
high exposure risk themselves while performing their normal job duties, 
if we are to expect them to come to work each day to carry out critical 
functions, they must be educated about the virus, their level of risk, 
what situations increase their risk and how to protect themselves.
    OSHA is developing guidance to employers, including in the health 
care industry, on how to determine the need to stockpile respirators 
and facemasks. The proposed guidance is publicly available on OSHA's 
website. Once finalized, this guidance will be added as an appendix to 
OSHA's existing guidance to employers on how to prepare for a pandemic. 
It is our expectation that most of this nation's hospitals and 
healthcare institutions, where workers are clearly at exposure risk, 
are fully prepared to provide that training, equipment and protection. 
And if they are not now prepared, that they are working hard to prepare 
and finalize plans to ensure that they are ready for an outbreak in 
their area or for a severe pandemic. These plans should include 
ordering and stockpiling respirators and other personal protective 
equipment, conducting fit testing, medical evaluation and training 
workers.
    Employers play a key role in protecting employees' safety and 
health and OSHA will continue to provide them with technical 
assistance, guidance and other information about steps to be taken to 
protect their workforces.
    OSHA stands prepared to use its existing authority to aggressively 
enforce safe work practices to ensure employees receive appropriate 
protection. Although OSHA has no specific standard on influenza 
exposure, in appropriate circumstances the agency will use the 
``General Duty Clause'' of the Occupational Safety and Health Act, 
which requires employers to provide employment free from recognized 
hazards, to ensure that employers follow the practices that public 
health experts agree are necessary to protect workers' health. OSHA and 
the Centers for Disease Control and Prevention (CDC) have distributed 
extensive information about how to protect workers from influenza 
exposure in the workplace.
    OSHA also has standards addressing personal protective equipment, 
as well as a respirator standard that requires a complete respiratory 
protection program including training, medical evaluation and fit 
testing when respirators are needed to protect workers' health. It is 
the employer's responsibility to ensure these workers have the 
protection and training they need: when to wear a respirator, what kind 
of respirator, how to get the respirator fit-tested and wear it 
properly; when to wear gloves; and how to put on and take off personal 
protective equipment.
    OSHA has been addressing the issue of an influenza pandemic in the 
workplace for a number of years. The agency first issued guidelines on 
this hazard in March 2004. The guidelines were updated and expanded in 
February 2007 in a document entitled, Guidance on Preparing Workplaces 
for an Influenza Pandemic. This publication, issued jointly by DOL and 
the Department of Health and Human Services, is an excellent source of 
information for employers on how to prepare for a pandemic and to 
select appropriate administrative, work practice, and engineering 
controls and the personal protective equipment to reduce the impact a 
pandemic could have on business operations, employees, customers and 
the general public.
    In addition, based on our existing guidance and the current virus, 
OSHA is developing numerous sources of information for workers and 
their employers on pandemic influenza. They include Fact Sheets and 
Quick Cards written in both English and Spanish. The agency's website 
(www.osha.gov) contains comprehensive information on dealing with a 
pandemic, including frequently asked questions for healthcare workers 
and copies of OSHA's guidance documents. OSHA plans to post answers on 
this site to common incoming questions about 2009-H1N1 from workers and 
employers. The agency's webpage not only contains helpful information 
but also is linked to the Federal website at www.pandemicflu.gov. That 
site has up-to-the-moment information on the status of the 2009-H1N1 
outbreak and advises people of measures they can take to minimize the 
risk of their own exposure and how best to avoid exposing others.
    If the 2009-H1N1 outbreak becomes severe, OSHA will be fully 
integrated in public communication efforts. We will distribute news 
releases and public service announcements to media outlets, employers, 
trade associations, and unions, directing the viewer to OSHA's more 
detailed on-line resources.
    OSHA's consultation program, with offices located throughout the 
nation that provide assistance to small businesses, is also part of the 
pandemic flu response. The state consultants are knowledgeable about 
the mix of workplaces and industries in their states and can determine 
which worksites most need to be informed. Consultants will deliver 
advice and information both to individual worksites and government or 
business headquarters. OSHA can provide similar assistance to federal 
government agencies by having OSHA compliance safety and health 
officers fulfill requests for technical assistance.
    Particularly since September 11, 2001, the ensuing anthrax attacks 
and Hurricane Katrina, as well as throughout the extensive pandemic 
planning, OSHA has worked closely with other agencies involved in 
emergency response such as the Department of Homeland Security, the 
Environmental Protection Agency, the Department of Agriculture, and 
HHS, including the National Institute for Occupational Safety and 
Health (NIOSH) and the CDC. The Department of Labor has representatives 
participating daily in interagency conference calls and working groups 
related to pandemic preparedness and updates on and the coordinated 
response to the 2009-H1N1 flu. OSHA, working closely with CDC and 
NIOSH, has taken the lead role in establishing worker protection 
protocols for pandemic flu and providing advice and assistance to other 
government agencies.
    OSHA recognizes it plays an essential role in protecting critical 
emergency responders and workers in such professions as health care, 
border security, and transportation--as well as the general workforce. 
Based on OSHA efforts since the World Trade Center tragedy, response 
organizations have been coming to OSHA for technical assistance. 
Through planning and preparedness practice, OSHA has worked closely 
with state and local public health agencies to deal with emerging 
health hazards. I am confident that the numerous exercises we have 
carried out in emergency planning at both the federal and local levels 
in the past eight years will pay off in our ability to work together in 
combating this threat to the workplace.
    Mr. Chairman, in addressing an influenza pandemic that threatens 
the workplaces of this nation, we are confronting an unprecedented 
hazard. In OSHA's 38-year history, America has never experienced a flu 
pandemic. However, I would characterize this situation for the 
workforce just as the President has described it for the nation: 
``Cause for deep concern, but not panic.'' I am very confident in the 
expertise of OSHA's medical, scientific, compliance assistance and 
enforcement personnel. OSHA is prepared to address this threat and we 
will protect our workforce. I will keep you informed about OSHA efforts 
to protect America's working men and women from pandemic flu exposure.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Garcia?

   STATEMENT OF MIGUEL GARCIA, REGISTERED NURSE AND MEMBER, 
  AMERICAN FEDERATION OF STATE, COUNTY AND MUNICIPAL EMPLOYEES

    Mr. Garcia. Hi. My name is Miguel Garcia. I am a registered 
nurse. And Chairman Miller and other members of the committee, 
thank you very much for asking me to come and testify.
    Because I work in the emergency department at Kaiser 
Permanente Los Angeles Medical Center, I am on the front line 
of fighting this current outbreak of the 2009 H1N1 influenza. I 
am testifying on behalf of UNAC-UHCP, who is a part of AFSCME, 
which represents 1.6 million members, including 360,000 health 
care workers. In order for nurses to be able to treat and 
protect patients, we must be protected first.
    My employer, Kaiser, has taken a positive collaborative 
approach towards flu preparedness through a strong labor-
management partnership. Kaiser is taking an organization 
approach to how we care for members, our patients, and our 
staffs.
    In many respects, my employer is the example of 
preparedness. However, many of the employers have not taken the 
necessary steps to prepare and protect health care workers from 
a flu pandemic or the current outbreak of the H1N1 flu 
infection.
    A recent survey conducted by my union and other labor 
unions representing health care workers found that more than 
one-third of the respondents believe that their workplace is 
not ready or only slightly ready to address the health and the 
safety needs necessary to protect health care workers during 
this influenza crisis. This survey also found that given this 
lack of readiness, 43 percent of the respondents believe that 
most or some of their coworkers would stay at home.
    Importantly, Kaiser does provide me an annual fit test for 
the N95. An N95 respirator is different than a surgical mask. 
The surgical masks are designed to prevent the person wearing 
the mask from contaminating the external environment with fluid 
and air droplets when a person coughs, sneezes, or talks.
    Surgical masks aren't designed to have a tight seal on your 
face. They leak around the mask while you inhale. Surgical 
masks do not protect you from breathing viral particles that 
are suspended in small droplets.
    Respirators, on the other hand, are specifically designed 
to protect the person wearing the respirator from inhaling into 
their lungs viral particles that are suspended in the air. 
Respirators, unlike surgical masks, seal tightly around the 
face and prevent leakage of air inside the respirator that 
could then be inhaled into the lungs.
    Currently, there is no comprehensive federal standard that 
requires employers to protect health care workers from airborne 
hazards like the H1N1 or tuberculosis. There are OSHA and CDC 
guidelines, but to date these guidelines have only been 
voluntary.
    Patients who have the H1N1 flu are likely to go to the 
emergency room. To treat and to care for these patients, health 
care workers and first responders must be protected. We need 
more than guidelines from OSHA in order to make sure that all 
employers provide consistent protections to health care workers 
during this flu pandemic. We need to have clear rules for all 
health care employers to follow.
    We do not know with certainty the path that the 2009 H1N1 
influenza virus will take, but we do know that it is a 
recognized hazard. OSHA should use existing standards covering 
respiratory protection and personal protective equipment and 
use its authority to enforce those standards in heath care 
settings where workers may be exposed to the flu virus.
    OSHA has authority to make its current pandemic influenza 
guidance for health care workers and health care employers 
mandatory. Taking such a step quickly would send a clear signal 
to the public and health care workers that the government is 
proactive in protecting the workers who are needed to care for 
the sick in our communities. Protecting these workers will 
preserve our surge capacity to treat the infected.
    In addition, we need OSHA to move quickly--to move as 
quickly as possible to develop and issue a mandatory 
comprehensive standard to protect health care workers from 
airborne infectious diseases similar to the existing 
comprehensive standard on bloodborne diseases.
    Thank you for listening, and I invite your questions.
    [The statement of Mr. Garcia follows:]

    Prepared Statement of Miguel Antonio Garcia, R.N., BSN, for the 
      American Federation of State, County and Municipal Employees

    My name is Miguel Garcia and I am a registered nurse. I want to 
thank Chairman Miller and members of the Committee for inviting me to 
testify today. Because I work in the Emergency Department at the Kaiser 
Permanente Los Angeles Medical Center, I am on the frontline of 
fighting the current outbreak of 2009 H1N1 influenza, which has been 
called ``swine flu''. I am testifying on behalf of my union, the 
American Federation of State, County and Municipal Employees, which 
represents 1.6 million members, including 360,000 health care workers.
    In order for nurses to be able to treat and protect our patients, 
we must be protected first.
    My employer, Kaiser, has taken a positive, collaborative approach 
towards flu preparedness through a strong labor-management partnership. 
Kaiser is taking an organizational and systemic approach to how we care 
for our members and workers. For example, at the national level, Kaiser 
has engaged its union partners to closely monitor the evolving flu 
situation and its impact on patient and worker needs, rapidly adapt 
guidance from the Centers for Disease Control and Prevention (CDC), 
monitor respiratory protection programs and implement an aggressive 
program of worker and member hand washing--which is vital to reducing 
flu infection and progression. Stocks of supplies necessary to protect 
workers from exposure to this airborne virus are being inventoried 
daily at all levels and their use is closely checked and tracked. It is 
my understanding that my union, in partnership with Kaiser, is 
establishing a rapid communication system to keep workers up-to-date on 
current events.
    In addition to these vigilant and positive efforts to prepare our 
staff to deliver high quality and safe care, my medical center has 
advanced technological and engineering features that make us better 
prepared. My medical center has several negative pressure isolation 
rooms which are designed to reduce the spread of airborne diseases.
    Kaiser has also implemented a respiratory protection program for 
health care workers with potential exposure to airborne infectious 
agents. As part of that program, my employer provides me with an annual 
fit-test for an N95 respirator.
    An N95 respirator is different than a surgical mask. Surgical masks 
are designed to prevent the wearer from contaminating the external 
environment around them with fluids and droplets that the wearer 
releases when coughing, sneezing or talking. Surgical masks have 
specific levels of protection from penetration of blood and body 
fluids--not from airborne particles. Surgical masks are not designed to 
provide a tight seal on the wearer's face and they leak air around the 
seal whenever the wearer inhales. Surgical masks do not protect the 
wearer from breathing in virus particles that are suspended in small 
droplets in the air.
    Respirators, on the other hand, are specifically designed to 
protect the wearer from inhaling into their lungs the virus particles 
that are suspended in the air. Respirators, unlike surgical masks, seal 
tightly on the wearer's face to prevent leakage of air inside the 
respirator that could then be inhaled by the wearer into their lungs.
    In many respects my employer is the exemplar in preparedness. 
However, many health care employers have not taken the necessary steps 
to prepare and protect health care workers from a flu pandemic or the 
current outbreak of the H1N1 flu infection.
    A recent survey conducted by my union and other labor unions 
representing health care workers found that more than one-third of 
respondents believe their workplace is either not ready or only 
slightly ready to address the health and safety needs necessary to 
protect health care workers during an influenza pandemic. The survey 
also found that, given this lack of readiness, 43 percent of 
respondents believe that most or some of their fellow workers will stay 
home.
    Currently there is no comprehensive federal standard to require 
employers to protect health care workers from an airborne virus like 
H1N1 or tuberculosis. There are OSHA and CDC guidelines, but to date 
these guidelines have only been voluntary.
    Patients who have the H1N1 virus are likely to visit their local 
hospital's emergency room. To treat and care for these patients, health 
care workers and first responders need to be protected. Without clear 
mandatory rules, even the best employer may experience gaps in 
protecting its workers.
    In order to make sure that all employers provide consistent 
protections to health care workers during a flu pandemic, we need more 
than guidelines from OSHA. We need to have clear rules of the road for 
all health care employers to follow. Now is the time to ensure 
preparedness and protections by establishing clear requirements that 
are put in place immediately.
    We do not know with certainty the path the 2009 H1N1 virus will 
take, but we know it is a recognized hazard. OSHA should use its 
existing standards covering respiratory protection and personal 
protective equipment and use its authority to enforce those standards 
in health care settings where workers may be exposed to this flu virus.
    OSHA has authority to make its current ``Pandemic Influenza 
Guidance for Healthcare Workers and Healthcare Employers'' mandatory 
for health care facilities under its general duty clause. Taking such a 
step quickly would send a clear signal to the public and health care 
workers that the government is proactive in protecting the workers who 
are needed to care for the sick in our communities. Protecting these 
workers will preserve our surge capacity to treat the infected.
    In addition, we need OSHA to move as quickly as possible to develop 
and issue a mandatory comprehensive standard to protect health care 
workers from airborne infectious diseases, similar to the existing 
comprehensive standard on bloodborne diseases.
    Thank you for listening. I welcome your questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Brockhaus?

  STATEMENT OF ANN BROCKHAUS, OCCUPATIONAL SAFETY AND HEALTH 
                   CONSULTANT, ORC WORLDWIDE

    Ms. Brockhaus. Good morning. On behalf of ORC Worldwide I 
would like to thank the committee for this opportunity to 
discuss some of the steps businesses are taking to ensure that 
workers are protected from the H1N1 virus.
    Over the past few days there appears to be a growing 
consensus among the experts that this new virus is, at least 
for now, a less serious threat than originally feared 13 days 
ago, although, as has been mentioned, this is no time for 
complacency. But the story could have been very different, and 
there are a number of important lessons that can be learned 
from our observations of the actions taken by businesses as the 
situation rapidly evolved.
    The first lesson we would like to highlight is that 
advanced planning counts. ORC Worldwide conducted 
teleconferences on April 28th and May 5th for our networks 
membership of several hundred multinational companies from 
diverse industry sectors to share critical information on 
strategies for responding to the H1N1 outbreak.
    Additionally, on May 1st, ORC sent a survey questionnaire 
to the health, safety, and human resources function of more 
than 600 ORC client companies regarding aspects of their 
company's preparedness and response activities. We have learned 
useful information from these teleconferences and from the 89 
companies that have responded to our survey.
    First, an overwhelming majority of those responding to the 
survey have a business continuity plan, or pandemic 
preparedness plan, in place to respond to global outbreaks of 
flu or a full-blown flu pandemic. Over 60 percent of the 
companies responding implemented changes to business travel 
practices as a result of the outbreak.
    Communication to employees in the form of health briefings 
and dissemination of contact numbers for medical advice is 
reported by the majority of respondents. Almost half of those 
responding had instituted policies requiring that employees 
returning from areas with confirmed cases of H1N1 stay at home 
for a period of time before returning to work.
    We learned that existing plans were often geared to worst 
case scenarios, and plans had to be adjusted as new information 
about the severity and scope of the H1N1 outbreak became 
available. Additionally, communication and coordination across 
functions has been a challenge in some companies. Preparedness 
planning must include regular communication across critical 
functions, such as health and safety, human resources, 
security, legal, and others, and must be established well 
before a crisis occurs.
    Companies tell us that planning initiated in response to 
the threats of SARS and avian flu, and refined over time, has 
proven to be practical and useful in the situation we find 
ourselves in today. Effective plans contain feedback loops 
allowing for evaluation of their effectiveness and midcourse 
corrections. Plans must be scalable, flexible, and adaptable to 
rapidly changing conditions.
    Lesson two is that timely and consistent government 
information and guidance is critical to effective response. 
Clear and timely government information at the federal, state, 
and local level has proven to be critical to company efforts to 
respond effectively to this outbreak. Frequently updated 
information and guidance from the CDC has been invaluable.
    Preparedness planning activities related to avian flu and 
bioterrorism by state and county and local health departments 
in California provide the particularly compelling example of 
how public-private partnerships and outreach to the business 
community have helped inform the business response to the 
current public health emergency. OSHA's outreach to the 
business community this week was also very welcome. 
Particularly heartening is the commitment by OSHA, NIOSH, and 
the CDC explicitly expressed, and other agencies, to coordinate 
their response activities and eliminate any inconsistencies in 
messages.
    On the ground coordination is necessary in many more 
jurisdictions. This is a two-way street, in our opinion, and 
both business and government entities at all levels need to 
look for new ways to effectively connect and collaborate on 
public health preparedness issues.
    Efforts to use novel ways to deliver critical public health 
information to a vast and diverse audience must continue. CDC's 
use of Twitter is a great example of this.
    And lesson three: Making pandemic flu planning part of an 
overall safety and health management system optimizes 
protection of workers and helps to ensure business continuity. 
A basic foundation for effective worker protection is the 
establishment of a comprehensive system for managing safety and 
health performance, focusing on elimination of injuries and 
illnesses through a continuous process of identifying, 
assessing, and reducing risks.
    Companies with such systems in place and with the active 
engagement of senior leadership are in the best position to 
effectively engage in preparedness planning, keep plans up to 
date, and take decisive action in response to public health 
emergencies such as the current H1N1 outbreak.
    ORC looks forward to working with the committee as it 
continues to evaluate the key components of effective programs 
and policies to ensure worker protection, and I would be happy 
to answer any questions that the committee might like to pose.
    [The statement of Ms. Brockhaus follows:]

 Prepared Statement of Ann Brockhaus, MPH, Senior Occupational Safety 
                  and Health Consultant, ORC Worldwide

    The Washington, DC office of ORC Worldwide has provided specialized 
occupational safety and health services to businesses for more than 35 
years. On behalf of ORC Worldwide, I would like to thank the Committee 
for this opportunity to discuss some of the steps businesses are taking 
to ensure that workers are protected from emerging infectious diseases, 
such as H1N1.
    Over the past few days, there appears to be a growing consensus 
among the experts that the novel Influenza A (H1N1) virus is proving to 
be, at least for now, a less serious threat than originally feared 13 
days ago. But the story could have been very different and there are a 
number of important lessons that can be learned from our observations 
of the actions taken by businesses as the situation rapidly evolved.
Lesson #1: Advance Planning Counts!
    ORC Worldwide conducted two teleconferences for our Networks 
membership of several hundred multinational companies from diverse 
industry sectors to share critical information on strategies for 
responding to the H1N1 outbreak. On April 28, over 300 individuals 
participated in the call. On May 5, more than 120 participated. In 
addition, on May 1, ORC fielded a survey to the health, safety and 
human resources functions of more than 600 ORC client companies, 
regarding aspects of their company's preparedness and response 
activities. Based on information from the 89 companies that have 
responded so far, it has been apparent that businesses have been 
diligent and thorough in their consideration of the appropriate 
response. We are also pleased to see responses that are thoughtful, 
measured and without over-reaction. We believe we are seeing the 
benefit of responsible planning, much of which was initiated in 
response to the threats of SARS and avian flu, but most importantly, 
planning that has been maintained and proven to be practical and useful 
in the situation we find ourselves in today.
    While our survey is still in progress, we would like to provide 
some preliminary information about what we can conclude from responses 
received to date:
    <bullet> An overwhelming majority of the responders have a business 
continuity plan or pandemic preparedness plan in place to respond to 
global outbreaks of flu or a full-blown flu pandemic.
    <bullet> Over 60% of the companies responding implemented changes 
to business travel practices as a result of the outbreak. These changes 
primarily involved banning all non-essential travel to affected areas, 
requiring higher-level approval for travel to various locations, and 
specific restrictions related to travel to Mexico. Another 12-14% 
already had restrictions in place due to current economic conditions. A 
minority of respondents have taken no action at all, with most of these 
continuing to closely the situation closely.
    <bullet> Communication in the form of health briefings and contact 
numbers for medical advice when traveling is reported by the majority 
of respondents.
    <bullet> Almost half of those responding had at one point 
instituted policies requiring that employees returning from areas with 
confirmed cases of H1N1 to stay at home for a period of time before 
returning to work.
    I realize this is a small snapshot of information, but until the 
survey is complete, it is difficult to provide much more detail. We 
will provide the Committee with the full survey report when it is 
finalized.
    Recommendations:
    <bullet> Although we believe that large businesses are taking 
significant steps to prepare for a flu pandemic, it is likely that 
small and medium-sized businesses will need additional messages about 
the need for planning and assistance tools that are clear and easy to 
use.
    <bullet> Our members report that existing plans were geared to 
``worst case scenarios'' and that plans had to be adjusted as new 
information about the severity and scope of the H1N1 outbreak became 
available. Plans must be scalable, flexible, and adaptable to rapidly 
changing conditions.
    <bullet> Our members report that internal communication and 
coordination has often been a challenge. Companies need to ensure that 
preparedness plans provide for effective communication among critical 
functions such as health and safety, human resources, security, legal 
and others.
Lesson #2: Timely and Consistent Government Information and Guidance is 
        Critical to Effective Response!
    The timeliness of the government messaging about the outbreak--at 
the federal, state and local level--has proven to be critical to 
company efforts to respond effectively to the outbreak. The frequent, 
clear messages from the CDC have been invaluable. In addition, 
preparedness planning activities related to avian flu and bioterrorism 
by state and county/local health departments in California, provide a 
particularly compelling example of how public/private partnerships and 
outreach to the business community have helped inform the business 
response. Important groundwork has been laid over the past few years 
educating businesses about the public health system and government 
response plans, and making connections between key contacts. Again, the 
experience in California is instructive: there have been a number of 
cross-sector pandemic planning events and exercises that have included 
business representatives. There have also been efforts at the county 
level to encourage business participation in the CDC's Cities Readiness 
Initiative, involving the mass dispensing of critical medications from 
the Strategic National Stockpile. The H1N1 outbreak has proven the 
value of this preparation.
    OSHA's outreach to the business community this week was also 
welcome. Particularly heartening is the commitment by OSHA, NIOSH, the 
CDC and other agencies to coordinate their response activities and 
eliminate inconsistencies in messages.
    Recommendations:
    <bullet> ``On the ground'' coordination is necessary in many more 
jurisdictions. This is a two-way street and both business and 
government entities at all levels need to look for new ways to 
effectively connect and collaborate on public health preparedness 
issues.
    <bullet> The on-going effort to use novel ways to deliver critical 
public health information to a vast and diverse audience must continue. 
CDC's use of Twitter is a great example of this.
    <bullet> Efforts to ensure consistency of content and timing of 
public health messages must continue.
Lesson #3: Making Pandemic Flu Planning Part of an Overall Safety and 
        Health Management System Optimizes Protection of Workers and 
        Helps to Ensure Business Continuity!
    It is well-established that a basic foundation for effective worker 
protection is the establishment of a comprehensive safety and health 
management system which focuses on elimination of injuries and 
illnesses through a continuous process of identifying, assessing and 
reducing risks. Companies with such systems in place and with the 
active engagement of senior leadership, have been able to sustain the 
effort necessary to mobilize action in response to public health 
emergencies such as the current H1N1 outbreak.
    ORC looks forward to working with the Committee as it continues to 
evaluate the key components of effective programs and policies to 
ensure workplace preparedness for public health emergencies such as the 
H1N1 outbreak.
                                 ______
                                 
    Chairman Miller. If I might, if you would just take 30 
seconds to explain ORC.
    Ms. Brockhaus. ORC Worldwide is a human resources and 
health and safety consulting firm. For more than 35 years, our 
Washington, D.C. office has focused on occupational safety and 
health consulting. And I am with the ORC D.C. office.
    Chairman Miller. So this is one of the service provided by 
ORC to its clients, to its members?
    Ms. Brockhaus. ORC advises its clients on best practices in 
worker protection, and also helps our clients share information 
with each other so that in diverse industry sectors there can 
be a sharing of information about what works best in terms of 
worker protection.
    Chairman Miller. Okay. Thank you. Thank you.
    Well, thank you all very much for your testimony, and I 
think your testimony helped put a lot of this into context. I 
think when we look at it in the communities that we represent 
you see a lot of conflicts.
    Do you send the kids home, or you don't send the kids home. 
If you send the kids home is there anybody home to take care of 
them? If workers leave can the business keep running? Or do you 
want sick people at work? I mean, this isn't a clear-cut 
decision on anybody's part, because there is these conflicts 
about how you handle it.
    Do you want workers to come in if they are sick or do you 
want them to stay home? Do I want to go in if I am not sick, if 
other people are sick? I need information about my 
environments, I guess, is what I am saying, and people are sort 
of pushed in the position of thinking, ``What is the safer 
environment for me or my children, my employees, what have you? 
What do I know about staying home, being in a community, being 
at work, being at school that is helpful to me?''
    Jack, you mentioned you thought there was some gap in--or 
you needed better communications between the state and the 
districts. Is that what you were suggesting?
    Mr. O'Connell. It is, Mr. Chairman. And I think so that we 
can share the information that we have. And I would also say 
the media has a role to play, and in my opinion, an obligation 
and a responsibility to let people know, for example, the 
severity of this particular strain. And that is why in my 
comments earlier, in terms of, ``We are pleased with this most 
recent decision,'' that sends a signal that this strain has not 
been considered as serious as that in central Mexico that has 
led to so many illnesses and so many regrettable deaths, yes.
    Chairman Miller. I see.
    Jordan, on your pyramid you talked about those who were at 
the top, and high risk and very high risk workers, and how do 
you and when do you put those workers into that category when 
you go through an episode like this? At the beginning, you have 
an influenza, you don't know a lot about it. Do you immediately 
decide so-called first responders in hospitals, doctors' 
offices, public health clinics, that they are immediately put 
into this category, in terms of being watched and providing 
information, or as it becomes--does that happen later when you 
know more about the influenza? How is that coordinated?
    Mr. Barab. First of all, we take our lead, in terms of the 
seriousness of the virus and the nature of the virus, from the 
CDC. We are very involved in a number of different committees 
and daily--more than daily--phone calls, and we keep very close 
track to how the virus is progressing.
    But in general, our advice to the high risk and the very 
high risk workers are pretty consistent: If you are in contact 
with a person who is infected--confirmed to be infected or 
suspected to be infected--you should take all the precautions 
that we recommend. And again, the engineering controls, the 
administrative controls, but also the respirators and the 
respirator----
    Chairman Miller. Is that a phased in consideration as you 
start to get more information? I mean, would you make a 
decision that health care workers in the point of contact 
should start protecting themselves, or should their, you know--
which could be washing your hands, but it could also be making 
a decision that you better be wearing a respirator. How is that 
information transmitted?
    Dr. Schuchat. Based on what we know about seasonal 
influenza and about respiratory viruses, health care workers 
were considered a high risk group, in terms of very close 
contact with people who were actively ill.
    Chairman Miller. That is a general understanding----
    Dr. Schuchat. For this particular infectious disease that 
would be. The other thing to say is that in any epidemiologic 
investigation, a very early question is, who is at higher risk? 
Which are the groups that are seeing the illness 
disproportionately?
    So one of the reasons CDC has people either working with 
state and local health departments in a number of affected 
areas, and people on the ground in Mexico, is to rapidly learn 
as much as we can about what is going on. Conflicting reports 
from different places, but trying to recognize quickly who will 
be at risk. This outbreak that we are seeing here, younger 
people have been more at risk than in seasonal influenza, so 
that was an early focus.
    Chairman Miller. And I assume that is not confined just to 
health care workers. Teachers could find themselves in that 
category if you found evidence that justified that--people in a 
place of employment, certain types of employment, perhaps, 
could find themselves at high risk?
    Dr. Schuchat. Absolutely.
    Chairman Miller. Okay.
    Dr. Schuchat. We will be looking at the epidemiologic 
information and trying to adapt rapidly to it.
    Chairman Miller. You mentioned, Ms. Brockhaus, that a 
significant number of your clients have business continuity 
plans, and that is done for all different kinds of eruptions, 
or interruptions----
    Ms. Brockhaus. Absolutely. And we are talking about large 
companies, mostly multinational companies that have learned 
over time that in order to ensure that in the event of a 
natural disaster, or all of the things that you can imagine 
that could interfere with a company being able to do its 
business, that they have plans in place that anticipate ahead 
of time what might happen and what the company will do in 
response. And for many companies, pandemic preparedness is now 
a component of an overall business continuity plan that would 
be in place to respond to all sorts of potential interruptions 
of business.
    Chairman Miller. Thank you.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    Doctor, you mentioned seasonal flu. So we have seasonal 
flus every year. Do you know how many deaths we have annually 
from seasonal flu?
    Dr. Schuchat. Right. Seasonal influenza kills an estimated 
36,000 Americans each year; there are 200,000 hospitalizations 
and millions and millions of infections.
    What is different about this particular outbreak is we have 
a completely new influenza virus that we don't expect there is 
large population protection against. With seasonal influenza, a 
good proportion of the population is naturally protected by 
years of experience with these viruses, and many more are 
protected through the vaccination efforts we make, with more 
than 100 million people getting vaccinated each year. So with a 
new influenza virus, a big fear is that if it has a certain 
amount of severity, you have the whole population at risk, and 
you could get much greater--even a greater burden than that 
36,000 deaths a year.
    Mr. McKeon. So that was what we were afraid of?
    Dr. Schuchat. Well, I think that we had--at the beginning 
of this we had a completely new virus, we had reports from 
Mexico of severe disease in healthy young adults, and we had 
information about things moving quickly. We acted aggressively 
and actively to try to take steps to decrease the risk of 
illness and death and slow the spread.
    The idea of slowing the spread is to stretch things out so 
that the heath care system won't get overwhelmed and to buy 
time for production of the vaccine, should that be necessary. 
So that was the original strategy.
    Mr. McKeon. The seasonal flu that kills 36,000 people every 
year is the same year after year, and this one is a new one?
    Dr. Schuchat. Well, the seasonal influenza viruses shift a 
little bit. They are just a little bit different each year and 
we make up a new vaccine each year because of that change.
    But with a totally new virus you have what is called a 
pandemic potential. You can get much more disease.
    Mr. McKeon. What does pandemic mean?
    Dr. Schuchat. A pandemic of influenza is defined by a 
strain that is able to cause severe disease in people, that it 
is totally new and you don't expect population protection, and 
that it is easily or efficiently transmitted in a sustained 
way. The H5N1 bird flu strain that we have been seeing--that 
was a totally new strain that there wasn't population immunity 
to, caused very severe disease, but it hasn't yet been able to 
cause this efficient transmission.
    What we saw with this H1N1 strain was a virus that was 
apparently being very easily spread, just like seasonal flu is 
easily spread, and the uncertainty that we have had, and 
continue to some extent to have, is just how severe it will 
become, or whether it will mutate and become even more severe 
than it is so far. So that is why the World Health Organization 
has really been on this high alert, and why the public health 
community has been acting so aggressively.
    Mr. McKeon. I had an uncle that died as a baby during the 
flu of 1918. That was a worldwide pandemic that killed how many 
people?
    Dr. Schuchat. Here in the U.S. we think it was half a 
million people, and up to 50 million worldwide. It was just a 
massive, massive problem. And that is really what we often, in 
our planning, talk about as the worst case scenario. It is a 
big focus of an early response, such as we have been having, to 
characterize the severity of the strain and understand what is 
going on.
    A cautionary note is that with the 1918 pandemic strain, it 
caused illness in the first spring of 1918 that was moderate, 
but it came back in the fall in a much worse form. And so 
either they didn't have antiviral drugs then or couldn't make a 
vaccine, and health care wasn't what it is now, but it wasn't 
over just in the spring. There was really a second wave that 
was more deadly than the first.
    Mr. McKeon. One of the concerns that I had when I first 
heard about his a couple weeks ago: It was everywhere in the 
media, and it was--I was worried that it was scaring people 
inordinately, and yet all they said to do was wash your hands, 
and unless you really need to go to Mexico, don't go.
    I mean, it sounded like in one was it was overkill and in 
another way it was, ``Well, you know, it is not that serious,'' 
and I guess that is a fine line. I think what you were doing 
and the other things we heard from the committee were very 
important.
    I am wondering if the media, as they tend to do, goes a 
little overboard and some people were scared, which is maybe 
why some schools were closed, some businesses maybe had overly-
concerned. I guess this is a fine line that you have to deal 
with on every disease, but when I think about the annual flu 
that we just kind of take for granted, I didn't realize that 
36,000 people died every year. And we have had two death now--
one person that came into the country already sick.
    I wonder where we--you know, how we handle that as regard 
to how thoroughly we scare people versus, you know, what 
actually finally ends up happening. I know the president asked 
for $1.5 billion to address this. Is that for money that you 
are already spending, or for schools that have lost money, or, 
you know--we haven't even really dealt with this yet in coming 
up with that money, but I guess I still have some questions. 
But I really appreciate the panel and thank you for your input.
    Chairman Miller. If I might take a privilege of the 
chairman, I am going to go to Mr. Andrews.
    Could you explain positively, because I think Mr. McKeon 
has touched on an important point--the idea that schools were 
closed and then schools were open was sort of a kiss-off, 
``Well, they just don't know what they are doing.'' And could 
you just describe the environment and how you arrived at that 
decision, both the first and the second decision, how you--the 
judgment you have to make? Because I think it is an important 
point, that you don't quite know. There is two schools of 
thought out there when this is all boiling around in the media.
    Dr. Schuchat. Yes. At CDC we have been acting very 
aggressively to get information out to local and state 
decision-makers and to provide guidance that will inform local 
or state decisions. An issue like school dismissals is under 
the authority of the local--usually local, sometimes state--
groups.
    We issued initial guidance on school dismissal recognizing 
that local decisions may differ from the national 
recommendations because of there is much better information on 
the ground about both the circumstances and where students or 
teachers may need to go, and, you know, what would be the 
consequences. Our original guidance was issued, we would 
probably say, very aggressively about, if you have a case 
recognized you should consider dismissing students.
    This was because the planning and modeling and the 
understanding of the role of school dismissal suggested that it 
is very early in a response where that would be effective at 
reducing spread by taking students who congregate together in a 
school and having them stay home with just the family context 
could really reduce the spread. What we found as we went on was 
that this virus was spreading in the community already, and 
that the disruption of the school environment was not really 
being justified by the intervention that we were recommending.
    But I would say that the decisions to issue guidance will 
vary as information changes. The role of school dismissals was 
planned for a very severe new virus.
    We didn't have adequate information at the beginning to 
rule that out. Right now we feel that what is circulating right 
now--it is not nothing, you know, it has severity in some 
people but that it wasn't that category five type of pandemic 
strain that we had feared. So we took early interventions; we 
respected local variability and really supported the locals who 
were making tough decisions with information on the ground.
    Chairman Miller. Thank you.
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman, and thank you for 
having this very timely hearing.
    I would like to thank each member of the panel. I know we 
are not out of the woods yet by any stretch of the imagination 
with this pandemic, but I think that each of you in your own 
way has done a very good job responding to this situation in 
informing the public and protecting the public. And again, I 
know we are not out of the woods, but I think you are off to a 
really promising start and we appreciate that. We do.
    Dr. Schuchat--did I pronounce your name correctly? 
Schuchat? Schuchat--I am sorry.
    Dr. Schuchat, on page eight of your testimony you talk 
about the two drugs that appear to be successful. I will not 
attempt to pronounce them. Since I have already botched your 
name I won't try.
    You say that acting quickly after you identify the virus 
and its potential impact on the population, you have released 
one quarter of the state's share of antiviral drugs and 
equipment to be used pursuant to help the states prepare to 
respond to the outbreak, and that the deployment of the 
stockpiles was completed by Sunday. To whom are these drugs 
distributed? How do drugs administer people who need help?
    Dr. Schuchat. The Strategic National Stockpile antiviral 
drugs were targeted primarily for use in treatment--44 million 
regiments----
    Mr. Andrews. What I am asking is, where does the treatment 
take place?
    Dr. Schuchat. Right. So they are distributed from us to the 
state health departments----
    Mr. Andrews. Right.
    Dr. Schuchat [continuing]. Or the project areas, and each 
state has submitted a plan of how they intend to distribute the 
antivirals. Some states would be going through regular 
pharmacies; some states would be using the public health 
settings.
    Mr. Andrews. Right.
    Dr. Schuchat. We really, in the pandemic planning efforts, 
required each state to think this through with----
    Mr. Andrews. Do they also use physicians' offices?
    Dr. Schuchat. Yes. Some of them do it that way. So it is 
really flexible in terms of what will work with their 
population----
    Mr. Andrews. One of the facts that really struck me about 
Mr. O'Connell's testimony--an amazing statistic: For every one 
school nurse in California you have 2,227 students. Wow.
    So if this program were in some way to be set up through 
the schools, it is certainly not going to succeed given that 
kind of ratio. What other kinds of public health--put it to you 
this way: If you had to get these drugs to a lot of people in a 
hurry, how do states typically do that?
    Dr. Schuchat. Again, this is left to the states. They have 
talked about their points of distribution--where will they do 
it? What type of workforce will they pull in to help with this?
    That is really part of the whole preparedness planning that 
has been going on around the state and local areas, 
understanding which sectors can be brought out to help with 
different stages. You know, from our role at CDC, you know, an 
early decision is, do you deploy these assets--you know, at 
what point do you send them out, because they become the 
state's or big city's assets once we deliver them----
    Mr. Andrews. Do the drafters of these plans have to pay 
special attention for people who do not have health insurance 
and therefore do not have primary care?
    Dr. Schuchat. Yes. There is a whole area of our pandemic 
planning around vulnerable populations, and that is a very 
important aspect of what the state and local would be deciding. 
The issue is, these are,you know, become state resources to 
distribute--not for reimbursement, just, you know, they give 
them out--that really focused on the treatment part.
    The states also have--no, most of the states all sort of 
purchase the same drugs for stockpiling for these types of 
reserves, and what we understand is, we have distributed the 
material, some of the states actually are using them already, 
some of them are holding them to see how things go, because 
those drugs are commercially available----
    Mr. Andrews. It is a little self-evident, but it occurs to 
me that if you don't have health insurance, even if your state 
gets its fair share of these drugs, you have pretty hard time 
accessing them, right? The school nurse, for legal and 
administrative reasons, probably is not going to administer 
them. You said the pharmacy--well of course, the pharmacy is 
not going to give them out for free, right? Are these 
prescription medications?
    Dr. Schuchat. The antiviral drugs that we are providing 
from the Strategic National Stockpile are not to be charged 
for; the government has purchased those--either the state or 
federal government----
    Mr. Andrews. Do you need a prescription to have one 
administered, though?
    Dr. Schuchat. We used an emergency use authorization that 
the FDA signed off on in this context to be able to just 
distribute it without individual prescriptions, so for the 
context of an emergency, no. For routine purposes, absolutely 
yes, and we think they should be taken under a doctor's advice.
    Mr. Andrews. I raise this issue because the chairman and a 
good chunk of the staff here is spending an inordinate amount 
of time on the health care reform issue, thank goodness, and 
this strikes me as yet one more compelling example of why we 
need every person in the country to have health care coverage. 
Anecdotally, it appears--and I see my time is up--that the 
better your primary care is, the lesser effect this virus is 
having on people, and more primary care seems to be the answer.
    Thank you, Mr. Chairman.
    Chairman Miller. Mr. Roe?
    Dr. Roe. Thank you, Mr. Chairman, for holding this meeting. 
I want to also fuss at the House of Representatives. We have 
done a terrible job--not fuss since I have been here--about no 
place for people who come in to alcohol their hands off. We 
should do that in every hallway. It should have been done 
months ago.
    So let us have this committee do something positive, and at 
least we shake hands with people from all over the country, so 
I am just sharing a frustration, Mr. Chairman. If we can get 
that fixed we will have done something positive for the House 
of Representatives.
    I think back when I was child about the polio epidemic and 
how that was managed and handled--a tremendous health care 
success, and to sort of defend--as a physician--to sort of 
defend the health care folks and the school director. What we 
planned--and as a surgeon, when I would go to the operating 
room, I planned on a train wreck and hoped I went on a train 
ride. They didn't know what the biological significance of this 
virus was when it came out, so we had to plan for the worst 
case scenario and hope for the best case scenario, in terms 
of--you know, we overplanned.
    And I am sure you recall, Dr. Schuchat, the 1976--maybe 
not; I do--swine flu epidemic. It turned out the vaccine was 
worse than the disease was. We didn't know that at the time, 
and hindsight is always 20/20.
    You know, I think from a school director's standpoint, when 
it snows in Tennessee where I live, eight flakes, the school 
director calls school off and gets ostracized and so forth, but 
had you rather do that or have a bus wreck up in the mountains 
and hurt some children, or potentially kill them? So you have a 
tough decision, and you are the ones that have to make that 
call. And I think the call was done appropriately here.
    Yes, it turned out this disease was not, or doesn't appear 
to be yet, as severe as we thought it was, but I think those 
preparations were extremely important. And to Mr. Andrews' 
comments, I called our EMA director. I went back in 2001 or 
2002 and got my smallpox, because we didn't know at the time, 
and we have an EMA plan, and I called some EMA directors in our 
area and say, ``Are you guys set to go? Is everyone ready?''
    ``Yes, we are ready, and we have a plan in our area to 
treat these epidemics.'' And I think that from 2000 and so, 
Homeland Security and CDC and so forth have made huge gains in 
being able to handle a problem as big as a pandemic, which, 
fortunately, this didn't turn out to be.
    So planning is very important. And I will share with you a 
brief story that occurred, and I won't mention which airlines. 
But this was when the smallpox scare in the early 2000s came 
along, a guy flew in from the Orient on an airline into 
Memphis, and they thought that he potentially had--could have 
smallpox. So what do the folks do? The keep him on the plane 
and send everybody else out. They sent, you know, 150 vectors 
out, and I immediately awarded them the Forrest Gump award, 
``Stupid is as stupid does.''
    So education has helped us, and planning, in the last few 
years, tremendously. And that is why, Ms. Brockhaus, I have 
really appreciated your comments on planning, because it does 
allow us a way to handle these epidemics and pandemics. Could 
you comment on that from an employer's standpoint, how they did 
just your planning efforts?
    Ms. Brockhaus. How--I am sorry, sir----
    Dr. Roe. Your planning efforts that you have done in 
businesses and so forth, and I know the schools have done that, 
also.
    Ms. Brockhaus. Well, first of all, I want to say in 
recognition of your frustration, Mr. Roe, one of my colleagues, 
Judy Freyman, in our office in Sacramento, calls this a 
teaching moment, when you were talking about, ``Let us do 
something here in the House of Representatives.'' So really, 
that is, I guess, the silver lining. Whenever there is an 
unhappy situation like a novel virus, like the H1N1, where, as 
Dr. Schuchat mentioned earlier, you know, lots of people 
suffered in many ways because of this outbreak, even though we 
are happy that it doesn't seem quite as severe as we though it 
would be.
    I just want to say that--to reiterate my point that 
planning in companies has to be--include reaching out to the 
local and state health departments. And we have said that over 
and over again and have showcased the response in California 
because it seems so effective to us, and we have been directly 
involved with the California state and local--variety of local 
health departments, many of them in California, and showcased 
those experiences to all of our member companies.
    These are large companies. You can imagine many of them 
have locations in all 50 states, so it is quite a hurdle for 
them to really reach out to the local health departments. 
California has really met companies halfway and more than 
halfway by initiating those outreach activities.
    Dr. Roe. One brief comment about nursing. Again, Mr. 
Andrews brought up--half of registered nurses in America can 
and will retire in the next 10 years, so it is not just in the 
school system. It is systemic, and we really need to train 
these health care professionals, and as Mr. Garcia certainly 
knows that very well.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman. I thank you for 
calling this very timely congressional hearing on this issue 
that impacts the whole country and many, many other nations. 
But it especially impacts my congressional district because I 
had a hospital in Harlingen, Texas, deep south Texas, that 
received a child that came from Mexico with a family that flew 
in through the valley and were looking for a second, third 
opinions. And that child then was moved on to Houston because 
of the complications, and that child died--one of the first 
ones--and Texas was charged for that one, that first death.
    But just recently, a couple of days ago, we had a second 
person die in my area. She was living in Harlingen, a teacher, 
who had given birth to a child just a few days before her 
death, and she was working in my school district of my 
hometown, Mercedes Independent School District. And so I say 
that it has hit us hard, and I have talked to those 
superintendents, I have spoken to some of the school board 
members, and they have all struggled with the decisions that 
they had to--that they made in closing down the schools, as 
they did several weeks ago.
    My question to you, Dr. Schuchat, is where is our country 
on collecting information on health workers at health care 
facilities that have seen confirmed cases of H1N1, and how many 
health care workers have gotten sick?
    Dr. Schuchat. First, I just want to say how sorry I am 
about what your community has gone through. I know that 
families affected and the students in that environment have 
been through quite a lot.
    CDC is actively working with state and local health 
officials to understand the situation in health care workers. 
It is a very important population. We have detected a number 
cases--I think yesterday it was 26 health care workers with the 
confirmed H1N1 virus, and we are actively investigating these 
to understand where they may have gotten the infection.
    Of course, wherever you work you could also have gotten the 
infection at home or in the community, or even while traveling. 
But we are also trying to understand the circumstances in the 
health care environment, whether they cared for anyone who had 
such an illness.
    The CDC has also been issuing guidance particular to health 
care workers to understand, you know, how can they protect 
themselves while we are still in this situation of uncertainty? 
We don't have the results of the investigation of the health 
care worker exposures or illness, but it is an active priority 
right now in a number of areas, and it will be perspective, you 
know, enrolling additional ones as well as the ones we have 
already found.
    Mr. Hinojosa. My other question is, what are the additional 
steps that CDC is taking to prepare schools like ours, and 
childcare facilities, for a potential pandemic?
    Dr. Schuchat. You know, with the switch from school 
dismissal guidance to recommending that schools reopen, you 
know, based on local decisions as well, we have really built up 
a stronger partnership with the Department of Education to try 
to identify ways that the school environment itself could be an 
opportunity for teaching, for education about how to avoid 
these types of respiratory infections, as well as a place to 
emphasize recognition of children or teachers who are ill and 
encouraging them to leave and stay home until they are better.
    So we are continuing to try to make sure that the right 
messages get out, and that we are taking steps to make sure we 
can keep kids in school where they can learn, and keep children 
who are not well home, where they will be able to recover 
before they return to the environment.
    Mr. Hinojosa. Thank you. I yield back, Mr. Chairman.
    Chairman Miller. Mr. Courtney?
    Mr. Courtney. Thank you. Thank you, Mr. Chairman, and thank 
you for holding this hearing.
    There is not question, as the witnesses have said, that 
local and state officials in the area of school closings make 
the final call, but your direction, I think, is really what 
they look to. In Connecticut, in my hometown, we--schools 
closed Thursday and Friday. My 14-year-old daughter says, 
``Thank you,'' I guess, but it was clearly driven by the 
initial guidelines.
    And, you know, one of the other ripple effects, in terms of 
how school officials reacted--maybe overreacted--was that 
schools were then subjected to these pretty dramatic scrub-
downs. Local media was in there doing, you know, coverage, and 
certainly we want clean schools, but I guess the question is, 
is that really something that makes sense from a scientific 
perspective?
    Dr. Schuchat. You know, the environmental cleaning is 
important for some viruses that can live on surfaces for a 
certain period of time, with attention to the high frequency 
areas--you know, railings on staircases, or doorknobs, elevator 
buttons, those types of things that lots of people touch. You 
know, I do think that--we have issued some guidance in working 
with environmental health experts at CDC as well as the 
virologists to try to focus the energy into the most effective 
steps.
    So I think that, you know, the media will cover something 
that is quite visible, but we do include in our guidance 
cleanup of the high frequency--the environmental surfaces that 
are touched a lot by lots of different people.
    Mr. Courtney. I could care less about the media. The real 
questions is just that the local school budgets, as Mr. 
O'Connell knows, are stretched thin. This is all overtime that 
was generated as a result of this effort, and certainly being 
helpful to school superintendents, in terms of trying to not go 
overboard, would be helpful in terms of the right response.
    Dr. Schuchat. Yes. Thank you. I think one big issue for us 
is to try to focus the energy in the most effective efforts and 
away from the ones that aren't really worth the trouble. Thank 
you.
    Mr. Courtney. Mr. Modzeleski, I mean, communicating with 
parents in these situations where, you know, dismissal has 
suddenly been issued and then rescinded--again, I just, just 
using my hometown, I mean, they shut down Thursday and Friday. 
SAT testing was Saturday morning, and parents were lost in 
terms of whether or not they should drop their kids off to come 
in for tests.
    I mean, what is the department recommending? Is it, you 
know, phone trees, e-mail, I mean, how do you--and how much do 
you tell them?
    Mr. Modzeleski. That is a good question. What we recommend 
is to communicate often, communicate with accurate information, 
communicate in different modalities. This is not only--many 
schools have phone trees, but phone trees, text messages, 
placing it up on the Web, I mean, a lot of the information that 
we have received from schools and schools put out is now Web-
based. I mean, this is a good way of doing it.
    Text messaging is also another way. You know, we have been 
working with schools for the--since 2003 on what we call all 
hazards planning, making sure schools dealing with a whole wide 
variety of hazards. And one of the things there that we have 
seen is that schools have built into their communication plans 
is getting messages out to school--getting messages out to 
parents quickly in a lot of different ways and making sure that 
information is accurate. So those are the three things that we 
would recommend to all schools.
    Mr. Courtney. I would encourage you to kind of keep 
pounding that message, in terms of the department's 
communications to the localities, because, you know, it was 
clear--again, this happened so fast, and I am not trying to, 
you know, Monday morning quarterback, but, you know, it was 
pretty uneven--let us put it that way--in terms of how well 
that was implemented.
    But I think the other point that we have seen is that it is 
important to make sure that the information that is put out is 
accurate information.
    Mr. Modzeleski. Right.
    Mr. Courtney. It has to be accurate information. You know, 
if that delays the message a little bit I think it is better to 
delay the message and get it right, rather than to push it out 
and then have to rescind it, because that just confuses 
parents.
    And one other question for Dr. Schuchat about the--you 
know, what happens to the flu virus when, you know, spring 
turns into summer, and then when it sort of bounces back in the 
fall. I mean, does it go into remission? Does it disappear? 
Does it migrate? I mean, why should we still really be 
concerned if the summer is coming?
    Dr. Schuchat. You know, we will be looking very intensively 
in the southern hemisphere our summer, which is their winter, 
because they, you know, whether they see a regular seasonal 
influenza or whether they see this strain that we have been 
having emerge as a dominant problem, so both in terms of 
support and assistance to affected countries, but also the 
scientific investigation that will help us anticipate our fall 
experience. We don't know.
    Some of the pandemics of the past have sort of simmered in 
the summer. But we are hopeful that this season--the normal 
season--will be on our side, because, you know, cases are 
continuing to increase right now.
    People sort of think we are out of the woods, but every day 
we are getting a couple hundred more cases, and some of it is 
the backlog in the lab testing, but new cases. So we are 
hopeful that as we enter the summer, you know, or primarily as 
we enter June, that we might be seeing a dampening here, but we 
really need to be prepared for this same strain to be around or 
even have evolved a little bit to be in worse shape by then.
    Mr. Courtney. So if southern hemisphere countries aren't 
experiencing much this summer, is that a signal that we are 
not, you know, in a 1918 situation of a strong bounceback?
    Dr. Schuchat. That will be a good sign, but with influenza, 
you hate to say it, but it is very unpredictable. We have a lot 
of this virus here in the United States right now. Almost every 
state has it. And in the southern hemisphere they haven't 
actually detected cases, really, yet. They are looking. There 
is a couple suspect ones, but their flu season is just 
beginning, and we really need to work intensively in 
partnership----
    Chairman Miller. Gentleman's time is expired. We have a 
vote on. What I would like to do--I know members have 
questions; we are going to go to Ms. Titus next--but if we 
could limit it to 3 minutes, so you ask your most--your first 
question first, and we will see if we can get the members 
before we leave. It is Ms. Titus, Loebsack, Woolsey, McCarthy, 
Fudge, Hare----
    Titus?
    Ms. Titus. Thank you, Mr. Chairman.
    Secretary mentioned that every state has a preparedness 
plan, and I guess that they submit it to you, and there is an 
appendix about schools. Well, I have a copy of Nevada's plan 
here. There are 13 agencies that contributed to the plan; none 
of those agencies is at all related to education.
    The Appendix A has 38 acronyms. Not a one of those is 
related to education. I have only found the word ``school'' 
twice in 76 pages--one is on page 40, where it says, ``For 
additional information on schools and health care settings go 
to the CDC Web site.'' And the other mention of school is on 
page 58, and there it says, ``Other strategies for slowing the 
spread could include temporarily closing of schools, arenas, et 
cetera.''
    I wonder if all the state plans are this bad, and if they 
are this lacking in coordination with schools, and if we don't 
need to do some review of what the state plans are.
    I appreciate the fact that there is more coordination now 
as a result of the new flu, but we had a potential pandemic 
several years ago, when all of this was supposed to have been 
put in place, and none of the demographics or factors of this 
new flu are very different from those, so why is that missing? 
Why have we not done that before?
    Mr. Modzeleski. Well, it is a very good question, and there 
are two things going down on parallel tracks here. On the one 
hand, I want to repeat, is that we have been working with 
schools districts, primarily at the school district level, on 
developing and having schools developing what we call all 
hazards crisis plans.
    In 2006, because of the outbreak of the epidemic--or the 
potential outbreak of the epidemic in 2006, is we required that 
every school district receiving a grant through the Department 
of Education under our Readiness Emergency Management for 
Schools--and we have provided funds to over 600 school 
districts in this country on that--we required them to have a 
pan flu plan at the local level. So if you go out to the local 
level, especially for those districts that have received 
funding from the Department of Education on the preparedness 
grants, is that they have developed pan flu plans.
    What you are talking about is a requirement which is not a 
Department of Education requirement. It is a requirement which 
came down from Health and Human Services as part of a 
legislative requirement. And the appendix--I believe it is 
Appendix B4--is supposed to list education requirements, both K 
through 12 education as well as higher education, which is 
another appendix.
    We have reviewed all of those plans. Actually, we review 
those plans; we provide comments back to the states, and states 
were supposed to take the comments based upon our review and 
then revise those plans. We have not seen revised plans as of 
yet.
    Mr. Loebsack. Thank you, Mr. Chairman. Thanks for having 
this important hearing.
    And thanks to the witnesses. I will be very brief.
    Dr. Schuchat, I think you were at our bipartisan caucus. I 
brought up the, you know, question of using the word ``swine,'' 
and I want to thank you again for not using that word, and all 
of you for not using that word. I am from Iowa, and the pork 
industry is very important in Iowa, as it is in many states 
around the country.
    But I am pleased to read your testimony. And you did 
mention this in your oral testimony, but you state that there 
is no evidence to suggest this virus has been found in swine in 
the United States, and there have been no illnesses attributed 
to handling or consume pork. Currently there is no evidence 
that one can get this novel H1N1 influenza from eating pork or 
pork products, and you mentioned that we should always cook 
pork products to 160 degrees Fahrenheit just in case.
    Can you be--I know this is--you may not be able to answer 
this question for everyone, but can you be less equivocal and 
state that one may not get this influenza from pork products? 
Because, you know, this language--I understand why you use this 
language, ``no evidence currently right now that anyone has 
gotten the, you know, the influenza from pork,'' but can we go 
further than that and state that there is no way, if you will, 
that anyone can get this influenza from pork products?
    Dr. Schuchat. People don't need to be worried about eating 
pork, in terms of this particular virus. Influenza viruses can 
affect swine. Swine can become ill from influenza viruses. But 
everything we know about what is going on right now suggests 
you don't need to worry about pork, in terms of eating that or 
handling it.
    Mr. Loebsack. Thank you for going that far. I appreciate 
that.
    How are you getting the word out, then, about this, and how 
it is the case that, really, that it is not possible to get 
this from pork? How is the CDC getting the word out?
    Dr. Schuchat. You know, we have placed communication as our 
highest priority, really, in this response, because information 
and misinformation are important in how the public reacts and 
the unintended consequences. In terms of the pork issue, we 
have been working with both USDA and the pork board and other 
business concerns to understand what we can do to clarify the 
issue. You know, here in the U.S. this is an issue and in other 
countries it is an issue as well. We are really trying to be 
sensitive to both the cultural and economic impacts of our 
words.
    Mr. Loebsack. Right. Thank you. I think it is very--and for 
the record I want to say that it is very unfortunate that China 
and a number of other countries have banned pork in ports from 
Iowa and other parts of the United States. It is very 
unfortunate.
    Mr. Modzeleski, have you or have any of you seen any--Mr. 
O'Connell, in particular--have you seen any cafeterias--school 
cafeterias--banning pork products as a result of this?
    Mr. Modzeleski. We are not aware of any, sir.
    Mr. Loebsack. Okay, good.
    Thank you.
    Ms. Woolsey. Thank you, Mr. Chairman. Certainly our number 
one concern is the health of every American, everybody around 
the world, when it comes to a pandemic.
    Today we are talking about children and workers, and 
certainly one of the sure ways to stop an epidemic or a 
pandemic is for a sick child not to go to school and a sick 
employee to stay home from work. So, we need to provide a 
series of programs to protect the worker from loss of pay and 
from loss of any punitive retribution if they do stay home.
    So my question is--to you, Ms. Brockhaus--is, does ORC 
support a paid sick leave and/or paid family leave--family and 
medical leave--plan, or any other plans that bridge work and 
family?
    And then, Mr. Garcia, I would like you to think, while she 
is answering me, whether your employer has provided any of 
these plans or these benefits to their employees.
    Ms. Brockhaus. Ms. Woolsey, ORC's experience is really only 
with very large companies, and our experience with those 
companies--and we have some survey results we can share with 
you--is that more than 98 percent of the companies that we have 
surveyed are very large companies who have----
    Ms. Woolsey. Do they have paid family leave, so a parent 
can stay home with a sick child or the worker can stay home 
when they are sick?
    Ms. Brockhaus. Yes. They call the leave policies by 
different names, in many cases, and in many cases there is an 
amount of leave that is given that the worker has flexibility 
in terms of how to use. I am really not confident to address 
the issue of companies that don't provide that leave----
    Ms. Woolsey. Okay. Thank you.
    Mr. Garcia?
    Mr. Garcia. I thank you very much, and we do have, as part 
of our--what Kaiser has, part of our benefits, is sick leave 
pay, so that someone can stay home, as well as FAMLA and CFRA, 
that if there was a need to stay home with a family member, 
then we can. And one of the things that you pointed on that I 
think is very important is actually recognizing that how do 
stop the transmission of it?
    And right now, even when our emergency rooms--this is where 
I work, and working with workplace safety as a labor co-chair--
you know, emergency rooms are very busy just with our normal 
cardiac and stroke. And as we continue to double--and even 
though we are at the beginning of this understanding of the 
flu, we are seeing a doubling of people being infected, 
confirmed, as well as actually probable cases. So being very 
familiar with the germ theory is that this is how we stop the 
germ from actually--or, the virus from actually being 
contracted and transmitted, is by actually taking care of the 
worker, whether it be staying home, whether it be having 
standards that are put in place.
    Ms. Woolsey. And with my little--I have a tiny minute left, 
maybe--then you are using OSHA's standards to protect--prevent 
this from happening in the first place?
    Mr. Garcia. We do have policies in place that we are 
implementing, and as we prepare we are communicating when they 
start.
    Chairman Miller. Ms. Clarke?
    Ms. Clarke. Thank you very much, Mr. Chairman. In addition 
to being a member of this committee I am also chair of the 
Subcommittee on Emerging Threats, Cyber Security, and Science 
and Technology for the House Committee on Homeland Security. It 
is in this capacity that I am responsible for conducting 
oversight to ensure that the Department of Homeland Security is 
performing its mission of coordinating federal departments and 
agencies that are charged with responding to pandemic flu and 
doing what is necessary to address and mitigate the spread of 
H1N1 flu.
    I also happen to be the only member on this committee from 
New York City, but needless to say, I have a very special 
interest in being--in this topic being discussed today. And I 
would like to thank you, Mr. Chairman, and all of you who are 
contributing to this hearing today on this very important 
issue. I want to also take a moment to commend Mayor Michael 
Bloomberg, our deputy mayor, Linda Gibbs, and our health 
commissioner, Tom Frieden, for their response, work, vigilance, 
and keeping New Yorkers informed and safe.
    My first question is to Mr. Bill Modzeleski, and Jack 
O'Connell, and to you, Dr. Schuchat. I have a significant 
immigrant population in my home district in Brooklyn, New York. 
For many immigrants, English is their second language, and 
quick and effective communications with immigrant parents is a 
key component to preventing and mitigating this threat of the 
H1N1 flu and for future outbreaks.
    I would like to know what, if any, outreach our educational 
systems and the CDC have done to get this information into 
immigrant communities.
    Mr. Modzeleski. That is a great question. First of all, let 
me say, we have worked very closely with officials--key 
officials--in New York City, both in the city as well as with 
the Archdiocese school district when you had a recent outbreak 
in the high school. There are a lot of populations that we are 
dealing with here.
    One of the interesting things is that we held, as I 
mentioned in my testimony, three outreach phone calls, where we 
had well over 3,000 lines come in from people asking questions. 
And one of the questions that kept on coming up over and over 
again was about immigrant populations, not only those down by 
the border, but it other communities. And so what we have been 
trying to do is outreach, push information out from the 
Department of Education not only to school districts, but to a 
lot of community groups and organizations that represent those 
particular interests.
    Also, trying to ensure--and why we can't do it for every 
publication or every journal--is to try to make sure that the 
key pieces that we have are translated into key languages, 
especially Spanish. And we are not the only ones doing this.
    I mean, part of what our philosophy has been is that we 
move forward in working in the community. I have to do it with 
Dr. Schuchat. I have to do it with DHS. And I should say is, if 
you are looking at DHS, they have done a phenomenal job, I 
think, in coordinating overall efforts with all of the domestic 
agencies, including the Department of Education.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Chairman Miller. Mrs. Davis?
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Good to see you, superintendent. I just have a very 
practical question, partly from the stories of bathrooms not 
being equipped with soap or sanitizers. Is there some reason 
why we shouldn't have sanitizer dispensers in classrooms? Would 
that be overreach? Is that necessary?
    Would that be a good idea generally, in terms of educating 
students to use them? I know whenever I go anywhere people are 
always dousing me with, you know, sanitizer, and so just 
wondering if we shouldn't sort of look into that being usual 
fare for our classrooms.
    Mr. O'Connell. Congresswoman, nice to see you again. I 
think that is a very good idea. It comes down to a issue of, 
you know, funding and priority for our schools, and the 
strapped budgets that we have, the inadequate number of school 
nurses--and I believe that this issue has really called that 
issue, you know, front and center--and a point earlier, the 
shortage of nurses that we have not just for schools but also 
for our general population is going to be a real challenge for 
us.
    And that is why the posters, you know, on Congresswoman 
Clarke's issue--we have posters in California, as you know, 
multiple languages, very diverse student population. Forty-
eight percent of our students are Latino; 40 percent of our 
kids go home from school, speak a language other than English; 
39 percent of our kids came to school today to learn the 
English language, and so that--and one out of four students K 
through 12 came to school to learn the English language.
    So we do have to make sure that we, you know, multiple 
languages, and that we try to meet those basic health care, you 
know, good hygienic policies----
    Mrs. Davis. Right. Absolutely. But it is partly habit-
forming, and it just occurs to me sitting here, and I wanted to 
wait and say hello. Thank you very much.
    Mr. O'Connell. Thank you.
    Chairman Miller. Thank you very much. If I could have a 
couple of questions here. This question of what do--the 
interplay between employers and schools is rather significant, 
obviously, and so for the moment we have kind of dodged a very 
serious situation, and yet people may have to make decisions to 
go home to take care of a very ill child or family member, or 
they can't get the child to school, and, you know, we have a 
system sort of built up--there is various sanctions.
    If you don't show up for work, the theory is you are not 
doing your job. You could be fired. If you don't show up for 
school you can't take the test, you can't go ahead, you lose 
your ADA.
    There is all of these things that are built into the system 
that assume regular order every day, and yet we see--and I 
think the CDC has suggested and science has suggested--that we 
can expect a continuation of this trend toward something like a 
pandemic--it may be dangerous, it may not be dangerous, but it 
is going to be upsetting to the economy, to the school 
environment, to society. And I just wondered, now that we have 
had a bit of experience in terms of a very large-scale, you 
know, in my--in the county I represent we had five school 
closures, and you know, it kind of shook everybody up. I know 
that people were wondering if they should go.
    But are we starting to look at how we make these decisions 
and whether sanctions--you know, the traditional sanctions that 
are sort of institutionally in place or culturally in place--
whether they help us in dealing with the pandemic or they are a 
hindrance to is? And it is tough. You are an employer; you have 
got product you have got to move; you have got guidelines, you 
have got contracts, you have got commitments, and the other 
people on the other side of this country may not be 
experiencing any of this. What are we thinking about this in a 
larger sense?
    Start with the--because I know you have to go, and I know 
you all want to go. So I am not going to keep you very long, 
but Dr. Schuchat?
    Dr. Schuchat. You know, I think what you--the issue you 
raise is incredibly important. In our pandemic planning we had 
identified certain policy issues that would need to be surfaced 
that, you know, hadn't really been settled as we were thinking 
of the science or the public health impacts.
    We did, actually, public engagement around the question of 
what we call community mitigation--these issues like closing 
schools or making people telework, or, you know, really 
shutting down, social distancing, cancelling big gatherings, 
and some of the comments from the public citizens involved were 
about these matters, you know, will I be able to--you know, 
what is my employer going to do? Can I get forgiveness on my 
mortgage payments if I have got to, you know, not work for X 
amount of time because of these new policies?
    I think these are really important issues, and I would say 
we probably have a chance to learn from the experience that we 
have gone----
    Chairman Miller. It is how people make decisions, but I 
don't know that they--that we have a set of clear signals about 
your interests versus your traditional societal interests that 
come into conflict.
    Yes?
    Mr. Barab. Yes. This is not specifically an OSHA issue, but 
it is certainly a Department of Labor issue. When we are 
dealing here, we--part of a public health strategy is to get 
people to stay home if they are sick or if family members are 
sick. Obviously, if people don't have sick leave or don't have 
other income support they are not going to be able to do that. 
They are not going to do it. And that is a problem for the 
public health.
    We have, at the Department of Labor, identified a number 
of, really, holes in the social safety net that deal with 
income support, job retention, FMLA issues that don't 
necessarily apply to this situation, and it is an issue of 
great concern for us, and we are in deep discussions within the 
Department of Labor and with the White House on how to deal 
with this should we come across a really serious pandemic.
    Chairman Miller. Jack, you have teachers that--what do they 
do?
    Mr. O'Connell. We do, and the example I was thinking of, 
Mr. Chairman, is there is a large hospital in Santa Barbara, 
and of course, we are all thinking of them for the fire there 
right now, but in Santa Barbara the secret to that hospital's 
success is that they were able to provide childcare. You know, 
a predominant number of their employees are women, many single 
women, many with kids.
    And the childcare that they provide, they also have a 
segment for if the student--if their child is sick. And it is 
the only one that I am aware of, if your kid is sick we still 
want you as a nurse, as a doctor, as a LPN, to come to work, 
and we are still going to take care of your child. And I say 
that not from the health care perspective, but as the employer 
community--the hospital is a, you know, for profit institution, 
and think that has really helped them with their----
    Chairman Miller. With the traditional childcare centers it 
is almost the opposite. You want the kids to stay home, I 
assume.
    Mr. O'Connell. And this is the exception, yes. Right.
    Chairman Miller. Yes. Let me ask----
    Mr. Garcia, you----
    Mr. Garcia. Chairman Miller, I want to just mention, as far 
as our labor-management partnership, the things that are 
working with Kaiser Permanente that I am finding: I am hired by 
them as a contract specialist to actually allow the health care 
worker to have a say in--we have something called the unit-
based teams that, monthly we do meet, and every department is 
responsible, and our contract is over next year, and our 
reiterated, but we are supposed to, each department, to 
actually have a unit-based team that there is a equal say 
between labor and management.
    But I feel like one of the factors is, does the actual 
health care worker feel protected by the employer? And for one 
of the things that I feel like is working in our community, in 
our hospital, is that of a unit-based team and a partnered 
laborship-managment, and I am actually there to actually make 
sure that that culture is understood, whether it be from the 
management or from the labor, to say, ``Are we abusing this or 
are we not allowing the culture that you could stay home if you 
need to?''
    If something is unfair, I go there and I represent them, 
and so I feel like that is one of the things that is working, 
is a labor-management partnership.
    Chairman Miller. Let me ask you this question: I had a 
chance, sort of in the middle of all this, to visit a large 
medical center on an emergency basis. And so I was there for a 
couple hours, and of course, I am always amazed at how fluid 
the medical staff moves through in and out of patients with all 
different set of circumstances. But, you know, people weren't 
wearing masks; they weren't wearing respirators, they were just 
taking care of the patient population.
    How do those institutions make the determinations that you 
ought to move to a level where you should be wearing a mask or 
respirator or this? What is the guidelines that are there?
    Mr. Barab. We showed you the risk pyramid there. We really 
expect employers initially to do their own risk assessment. 
They need to decide who is at risk in their environment, and in 
this case, again, who as direct contact with infected or 
suspected to be infected individuals.
    Now, this shouldn't be anything new for hospitals. As you 
know, there are a variety of hazards that exist every day in 
hospitals, pandemic or no pandemic.
    Hospitals, we expect, should have some kind of health and 
safety program there, so they are making these determinations 
constantly about either infectious disease hazards or chemical 
hazards that workers face. So we expect them to apply those 
same principals to the pandemic flu situation.
    Chairman Miller. I mean, I am watching--sitting in the 
waiting room, I am watching the person that is doing the 
initial intake. She is talking to families. Somebody in the 
family is sick, but the whole family wants information, but 
they are gathering around her and they are talking to her and 
they are trying to determine--in some cases a member of the 
family is interpreting for them.
    This intake worker--I don't know if she is considered 
medical staff, or where she fits into that process, but she 
looked to me like a front line individual. So how would the--
you are saying that is handled based on the institutional 
decisions.
    Mr. Barab. Partially. I mean, when you get down from the 
high, very high risk, or high risk to what we might consider 
medium risk people, which may be workers who come across a lot 
of people every day--and those could be the intake people, they 
could be supermarket checkers, for example--you are dealing 
with a whole lot of people. Now, the precautions they need to 
take will be determined by how severe the virus is expected to 
be or is, and how pervasive it is, and those, again, we get our 
cues from CDC.
    In this case it wasn't very serious, and it wasn't, you 
know, as pervasive, and therefore we weren't dealing with the 
precautions at some of the middle level, middle risk--but that 
could change.
    Chairman Miller. If you are a grocery store, you probably 
don't want your checkers wearing a mask.
    Mr. Barab. No. Exactly.
    Chairman Miller. All right. But, so what is the step point 
for that decision? Do they have to be directed by CDC, that if 
you come in contact with large numbers of people where the 
influenza is geographically, you could say, it is here because 
of the level of infection? Who makes that decision? Because 
there is a lot of public relations reasons why, you know----
    Dr. Schuchat. You know, we have looked at the scientific 
information about what is going on, what type of transmission 
routes there are. Here we are mainly thinking of what we call 
respiratory or droplet precautions that are needed in that 
health care environment, and nothing really needed at the 
supermarket.
    But infectious diseases are different, and the 
circumstances will vary. And I just want to make the point that 
there is certain protection that the workers in the health care 
environment can take every year against the seasonal influenza 
strains that are also spread sometimes in health care settings, 
and unfortunately, even with that 36,000 deaths a year that we 
have and a lot of vaccine that is very effective, only about 43 
percent of health care workers take advantage of the seasonal 
flu vaccine each year.
    So in terms of those teachable moments, there is a lot that 
health care workers and hospitals could be doing to protect 
workers day-in and day-out in the annual flu.
    Chairman Miller. In your continuity plans, what do workers 
do if 10, 15 percent of the workforce has kids home sick? They 
have influenza, but you don't know at that point whether it is 
very serious or not; they have been told the school has been 
closed. What do employers----
    Ms. Brockhaus. Well, I wanted to make the point that one of 
the things that we found companies doing is developing 
questionnaires so that they could screen employees. Companies 
who were definitely with--definitely want sick workers to stay 
home. But it was tough. This is seasonal--seasonal allergy 
time. You know, is your runny nose from H1N1 or is it from 
allergies?
    So companies developed questionnaires, told sick workers to 
stay home but call in and have somebody run through a 
questionnaire. And the companies were very dependent on the 
description of the virus and its symptoms from the CDC. So 
questionnaires were developed based on the specific 
characteristics of this virus, trying to figure out who are the 
right people to keep at home. And so I just want to do another 
hats off to the CDC for providing that information.
    And the companies were so interested in these 
questionnaires that more than 20 companies shared their 
questionnaires with us to make them available to other 
companies so that they could learn from those questionnaires, 
and we are going to post those on our center of excellence Web 
site, which is on our public Web site.
    Chairman Miller. Well, thank you very much for your time 
and your testimony, and the expertise that you brought to this 
hearing this morning. There still remain some pretty serious 
questions in these large institutional responses, especially if 
this is something, unfortunately, that we can continue to look 
forward to with strains that we don't know a lot about in the 
beginning and we don't have white lines, exactly, what people 
should or should not do.
    It is a real test for--certainly for schools, I think. It 
is a very real test on how they cope with that, because again, 
you have deadlines and systems of financing.
    But thank you so much. Without objection, members will have 
14 days to submit additional materials and questions, and the 
hearing will stand adjourned.
    [Additional submission of Mr. Miller follows:]

       Statement of the National Partnership for Women & Families

    The National Partnership for Women & Families commends Chairman 
George Miller and Ranking Member Howard ``Buck'' McKeon for holding a 
hearing on the timely issue of the flu virus and how schools and 
workplaces can prepare. The National Partnership is a non-profit, non-
partisan advocacy group dedicated to promoting fairness in the 
workplace, access to quality health care, and policies that help 
workers in the United States meet the dual demands of work and family.
Workers Need Paid Sick Days
    In recent weeks, much attention has focused on the H1N1 virus 
(``swine flu'') and the best ways to contain it. The advice from the 
Centers for Disease Control & Prevention (CDC) and Administration 
officials is sound: `If you have a fever and you're sick or your 
children are sick, don't go to work and don't go to school.' That's 
good advice but, unfortunately, nearly half of private sector workers 
in the United States (43 percent) don't have a single job-protected 
paid sick day.\1\ The same is true for close to four in five low wage 
workers--the majority of whom are women.\2\ Nearly 100 million workers 
don't have a paid sick day they can use to care for a sick child. For 
them, staying home means losing pay and, perhaps, losing their job. In 
this economy, that's a terrible choice to have to make.
    The problem is particularly acute for working women--the very 
people who have primary responsibility for family caregiving. In fact, 
almost half of working mothers report that they must miss work when a 
child is sick. Of these mothers, 49 percent do not get paid when they 
miss work to care for a sick child.\3\ Women also are 
disproportionately affected by the lack of a standard of paid sick days 
because they are more likely than men to work part-time (or cobble 
together full-time hours by working more than one part-time position). 
Only 16 percent of part-time workers have paid sick days, compared to 
60 percent of full-time workers.\4\
    Our failure to guarantee a minimum standard of paid sick days is a 
significant public health concern. Many of the workers who interact 
with the public every day are among the least likely to have paid sick 
days. Only 22 percent of food and public accommodation workers have any 
paid sick days, for example. Workers in child care centers, retail 
clerks, and nursing homes also disproportionately lack paid sick 
days.\5\ If a lack of paid sick days means that they must work when 
they are ill, their coworkers and the general public are at risk of 
contagion.
    Workers with caregiving responsibilities are among those who 
urgently need access to paid sick days. As our population ages, more 
workers are providing care for elderly parents. Caregiving takes a 
financial toll on working people, especially when they have to take 
unpaid time off to provide care. More than 34 million caregivers 
provide assistance at the weekly equivalent of a part-time job (more 
than 21 hours per week), and the estimated economic value of this 
support is roughly equal to $350 billion\6\--a huge contribution to the 
health and well-being of their families. Caregivers contribute more 
than time; 98 percent reported spending on average $5,531 a year, or 
one-tenth of their salary, for out-of-pocket expenses.\7\ Yet, many 
lose wages each time they must do something as simple as taking a 
relative to the doctor.
    No state requires private employers to provide paid sick days. San 
Francisco, the District of Columbia and Milwaukee have passed 
ordinances requiring that private employers provide paid sick days. 
More than a dozen cities and states are working to pass paid sick days 
laws to ensure that this basic labor standard becomes a right for all 
workers. But illness knows no geographic boundaries, and access to paid 
sick days should not be dependent on where you work. Paid sick days is 
a basic labor standard like the minimum wage--and as with the minimum 
wage, there should be a federal minimum standard of paid sick days that 
protects all employees, with states free to go above the federal 
standard to address the particular needs of their residents.
    The Healthy Families Act would allow workers to accrue up to seven 
paid sick days a year that they could use to recover from illness or 
care for a sick family member. It's simple, it's smart, and it's a 
basic workplace standard. We urgently need it to become law.
Businesses Benefit from Paid Sick Days Policies
    Research confirms what working families and responsible employers 
already know: when businesses take care of their workers, they are 
better able to retain them, and when workers have the security of paid 
time off, their commitment, productivity and morale increases, and 
employers reap the benefits of lower turnover and training costs. 
Furthermore, studies show that the costs of losing an employee 
(advertising for, interviewing and training a replacement) is often far 
greater than the cost of providing short-term leave to retain existing 
employees. The average cost of turnover is 25 percent of an employee's 
total annual compensation.\8\
    As mentioned previously, paid sick days policies also help reduce 
the spread of illness in workplaces, schools and child care facilities. 
In this economy, businesses cannot afford ``presenteeism,'' when sick 
workers come to work rather than stay at home. ``Presenteeism'' costs 
our national economy $180 billion annually in lost productivity. For 
employers, this costs an average of $255 per employee per year and 
exceeds the cost of absenteeism and medical and disability benefits.\9\ 
In addition, paid sick days policies help level the playing field and 
make it easier for small businesses to compete for the best workers.
The Nation Needs Policies that Allow Workers to Meet their Job and 
        Family Responsibilities
    The economic crisis our country is currently facing has been 
devastating for working families. More than 11.6 million workers have 
lost their jobs, and millions more are underemployed. In February 2009, 
the unemployment rate was 8.1 percent--the highest level since December 
1983. The unemployment rate for African Americans was 13.4 percent, the 
rate for Hispanics was 10.9 percent, and the rate for whites was 7.3 
percent in January 2009. For many families that once relied on two 
incomes, this crisis has meant managing on one income or no income at 
all. As a result, families are not only losing their economic 
stability, but their homes: one in nine mortgages is delinquent or in 
foreclosure.10
    Especially at this time, when so many workers are suffering 
terribly, we must put in place a minimum labor standard so that taking 
time off for illness doesn't lead to financial disaster for families. 
Workers have always gotten sick and always needed to care for children, 
family members and older relatives--and they have always managed to be 
productive, responsible employees. But without a basic labor standard 
of paid sick days, families' economic security can be at grave risk 
when illness strikes. In this economic climate, when jobs are so 
scarce, we need a basic workplace standard of paid sick days to prevent 
workers from being forced to choose between their health or the health 
of their family, and their paycheck or even their job.
    Our nation has a proud history of passing laws that help workers in 
times of economic crisis. Social Security and Unemployment Insurance 
became law in 1935; the Fair Labor Standards Act and the National Labor 
Relations Act became law in 1938, all in response to the crisis the 
nation faced during the Great Depression. Working people should not 
have to risk their financial health when they do what all of us agree 
is the right thing--take a few days to recover from illness, or care 
for a family member who needs them. Now is the time to protect our 
communities and put family values to work by adopting policies that 
guarantee a basic workplace standard of paid sick days.
                                endnotes
    \1\ Vicky Lovell, Institute for Women's Policy Research, Women and 
Paid Sick Days: Crucial for Family Well-Being, 2007.
    \2\ Economic Policy Institute, Minimum Wage Issue Guide, 2007, 
www.epi.org/content.cfm/issueguides--minwage.
    \3\ Kaiser Family Foundation, ``Women, Work and Family Health: A 
Balancing Act,'' Issue Brief, April 2003.
    \4\ Vicky Lovell, Institute for Women's Policy Research, No Time to 
be Sick, 2004.
    \5\ Vicky Lovell, Institute of Women's Policy Research, Valuing 
Good Health: An Estimate of Costs and Savings for the Healthy Families 
Act, 2005.
    \6\ Gibson, Mary Jo and Houser, Ari, ``Valuing the Invaluable: A 
New Look at the Economic Value of Family Caregiving.'' AARP, June 2007.
    \7\ Jane Gross, ``Study Finds Higher Costs for Caregivers of 
Elderly,'' New York Times, 11/19/07.
    \8\ Employment Policy Foundation 2002. ``Employee Turnover--A 
Critical Human Resource Benchmark.'' HR Benchmarks (December 3): 1-5 
(www.epf.org, accessed January 3, 2005).
    \9\ Ron Goetzal, et al, Health Absence, Disability, and 
Presenteeism Cost Estimates of Certain Physical and Mental Health 
Conditions Affecting U.S. Employers, Journal of Occupational and 
Environmental Medicine, April 2004. 10 Center for American Progress, 
www.americanprogress.org/issues/2009/03/econ--snapshot--0309.html, 
March 2009.
                                 ______
                                 
    [Whereupon, at 11:52 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
